No. 20-1351
In the

Supreme Court of the United States
__________________

PHILLIP W. HURD AND PATRICK A. JENKINS,
Petitioners,
v.
JOY LASKAR, PH.D.,
Respondent.
__________________
On Petition For A Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit

__________________
RESPONSE TO PETITION FOR
A WRIT OF CERTIORARI
__________________
CRAIG A. GILLEN
GILLEN WITHERS & LAKE,
LLC
400 Galleria Parkway S.E.,
Suite 1920
Atlanta, Georgia 30339
(404) 842-9700
cgillen@gwllawfirm.com

MICHAEL ALAN DAILEY
Counsel of Record
ANDERSON DAILEY LLP
2002 Summit Boulevard,
Suite 1250
Atlanta, Georgia 30319
(770) 827-6510
mdailey@andersondailey.com

Counsel for Respondent
April 21, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the rule that a plaintiff must await
favorable termination before bringing a Section 1983
action alleging unreasonable seizure pursuant to legal
process requires the plaintiff to show that the criminal
proceeding against him has “formally ended in a
manner not inconsistent with his innocence,” Laskar v.
Hurd, 972 F.3d 1278, 1293 (11th Cir. 2020), or that the
proceeding “ended in a manner that affirmatively
indicates his innocence,” Lanning v. City of Glens Falls,
908 F.3d 19, 22 (2d Cir. 2018); see also Laskar, 972 .3d
at 1293 (acknowledging 7-1 circuit conflict).

ii
PARTIES TO THE PROCEEDING
Petitioners Phillip Hurd and Patrick Jenkins were
defendants in the district court proceedings and
appellees in the court of appeals proceedings.
Respondent Dr. Joy Laskar was the plaintiff in the
district court proceedings and appellant in the court of
appeals proceedings. Jilda Garton and Mark Allen were
also defendants and appellees below, but are not
parties to the Petition because the claims against them
were dismissed by the court of appeals.
RELATED CASES
• Laskar v. Hurd, No. 1:18-cv-04570, U.S.
District Court for the Northern District of
Georgia. Judgment entered April 3, 2019.
• Laskar v. Hurd, No. 19-11719, U.S. Court of
Appeals for the Eleventh Circuit. Judgment
entered August 28, 2020.
• Laskar v. Hurd, No. 19-11719, U.S. Court of
Appeals for the Eleventh Circuit. Judgment
entered October 23, 2020.
COUNSEL FOR RESPONDENT
Michael Alan Dailey of Anderson Dailey LLP was
counsel of record for Respondent in the district court
and the court of appeals.
Craig A. Gillen of Gillen Withers & Lake, LLC
successfully represented Respondent in the underlying
criminal prosecution giving rise to his Section 1983
claim.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
COUNSEL FOR RESPONDENT . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
STATEMENT OF POSITION . . . . . . . . . . . . . . . . . . 1
RESPONSE TO PETITION FOR WRIT OF
CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
I.

COURSE OF PROCEEDINGS AND
DISPOSITION BELOW . . . . . . . . . . . . . . . . . 4

II.

STATEMENT OF FACTS. . . . . . . . . . . . . . . . 5
A. Dr. Laskar’s Sparkling Professional
Record . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. The Investigation and Criminal
Prosecution of Dr. Laskar . . . . . . . . . . . . 11
1. Initiation Of The Investigation. . . . . . 11
2. Internal Audit’s 2010 Report . . . . . . . 15

iv
(a) A Snapshot of Phillip Hurd’s False
Report. . . . . . . . . . . . . . . . . . . . . . . 19
(b) A Snapshot of Patrick Jenkins’s
Incomplete And Misleading
Investigation . . . . . . . . . . . . . . . . . 21
III.

REASONS FOR GRANTING THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
A. The “Not Inconsistent With Innocence”
Test Is Both Just And Consistent With
The Realities Of Prosecutorial Case
Management . . . . . . . . . . . . . . . . . . . . . . . 25
B. Criminal Cases Are Designed To Assess
Guilt Beyond A Reasonable Doubt and
Not To Adjudicate Innocence. . . . . . . . . . 28
C. When Criminal Proceedings Terminate In
Favor Of A Defendant There Is Rarely An
Opportunity To Adjudicate Innocence . . . 30
D. 42 U.S.C. § 1983 Was Enacted To Remedy
And Deter Violations of the Constitution
by State Actors During
Criminal
Proceedings . . . . . . . . . . . . . . . . . . . . . . . . 32
E. This Court’s Decisions Do Not Include
Innocence As An Element Of Claims
Challenging Unconstitutional Detention
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

v
APPENDIX
Appendix A Plaintiff’s First Amended Complaint
in the United States District Court for
the Northern District of Georgia
Atlanta Division
(November 28, 2018) . . . . . . . . . . . App. 1

vi
TABLE OF AUTHORITIES
CASES
Apprendi v. New Jersey,
530 U.S. 466 (2000). . . . . . . . . . . . . . . . . . . . . . . 29
Baker v. McCollan,
443 U.S. 137 (1979). . . . . . . . . . . . . . . . . . . . . . . 34
Coffin v. United States,
156 U.S. 432 (1895). . . . . . . . . . . . . . . . . . . . . . . 28
Evans v. Michigan,
568 U.S. 313 (2013). . . . . . . . . . . . . . . . . . . . . . . 31
Hammock v. Wal-Mart Stores, LP,
2012 U.S. District LEXIS 191773
(N.D. Ga. July 26, 2012) . . . . . . . . . . . . . . . . . . . . 5
Herrera v. Collins,
506 U.S. 390 (1993). . . . . . . . . . . . . . . . . . . . . . . 28
In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . . . . . . . . . . 29
Jackson v. Virginia
443 U.S. 307 (1979). . . . . . . . . . . . . . . . . . . . 29, 31
Kyles v. Whitley,
514 U.S. 419 (1995). . . . . . . . . . . . . . . . . . . . . . . 32
Lanning v. City of Glens Falls,
908 F.3d 19 (2d Cir. 2018) . . . . . . . . . . . . . . . i, 28
Logan v. United States,
552 U.S. 23 (2007). . . . . . . . . . . . . . . . . . . . . . . . 32

vii
Manuel v. City of Joliet,
137 S. Ct. 911 (2017). . . . . . . . . . . . . . . . . . . . . . 33
McDonald v. United States,
335 U.S. 451 (1948). . . . . . . . . . . . . . . . . . . . . . . 34
McDonough v. Smith,
139 S. Ct. 2149 (2019). . . . . . . . . . . . . . . . . . 31, 33
Miller v. United States,
357 U.S. 301 (1958). . . . . . . . . . . . . . . . . . . . . . . 34
Mitchum v. Foster,
407 U S. 225 (1972). . . . . . . . . . . . . . . . . . . . . . . 33
Napue v. Illinois,
360 U.S. 264 (1959). . . . . . . . . . . . . . . . . . . . . . . 34
Nelson v. Colorado,
137 S. Ct. 1249 (2017). . . . . . . . . . . . . . . . . . 28, 29
Oklahoma City v. Tuttle,
471 U.S. 808 (1985). . . . . . . . . . . . . . . . . . . . . . . 32
Sandstrom v. Montana,
442 U.S. 510 (1979). . . . . . . . . . . . . . . . . . . . . . . 29
Savory v. Cannon,
947 F.3d. 409 (7 th Cir. 2020) . . . . . . . . . . . . . . . . 31
Smith-Hunter v. Harvey,
95 N.Y.2d 191, 734 N.E.2d 750 (Court of Appeals
of New York, July 6, 2000) . . . . . . . . . . . 25, 26, 28
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . . . 32

viii
Taylor v. Kentucky,
436 U.S. 478 (1978). . . . . . . . . . . . . . . . . . . . . . . 28
United States v. One Assortment of 89 Firearms,
465 U.S. 354 (1984). . . . . . . . . . . . . . . . . . . . . . . 31
Wearry v. Cain,
136 S. Ct. 1002 (2016). . . . . . . . . . . . . . . . . . . . . 34
Williams v. Marbut,
183 S.E. 820 (Ga. Ct. App. 1936) . . . . . . . . . . . . . 4
Wyatt v. Cole,
504 U.S. 158 (1992). . . . . . . . . . . . . . . . . . . . . . . 33
CONSTITUTION AND STATUTES
U.S. Const. Amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. ¶ 1983, Rev. Stat. § 1979 . . . . . . . . 3, 4, 32
N.Y. Crim. Proc. Law §§ 170.40 & 210.40. . . . . 30, 31
OTHER AUTHORITIES
Restatement (Second) of Torts, § 660 comment a . . 28
Brady, Surrell, Arrests Without Prosecution and the
Fourth Amendment,
59 Md. L. Rev. 1 (2000). . . . . . . . . . . . . . . . . . . . 31

1
STATEMENT OF POSITION
Respondent does not oppose Petitioner’s request for
issuance of a writ of certiorari. But rather than holding
this case pending the Court’s decision in Thompson v
Clark, No. 20-659, Pet. for Cert. at i (U.S. Nov. 6,
2020), as Petitioner suggests, Respondent suggests
instead that this case be consolidated for consideration
and argument together with Thompson v. Clark. The
Question Presented and accepted in Thompson,
specifically notes that Supreme Court review is
necessary because of the Eleventh Circuit’s decision in
this case. Indeed, it was Respondent who urged below
adoption of the “not inconsistent with innocence” test,
highlighting its relative benefits and inherent sense of
justice.
Moreover, the facts of this case effectively highlight
why this Court’s forthcoming decision will be so
important to criminal case defendants from all walks
of life. The Court’s decision will impact not just persons
whose reported and purported unlawful conduct
involves a specific confrontation with law enforcement,
it will be just as momentous for persons subject to
criminal prosecution based on false, misleading and
materially incomplete investigations performed by
other state actors who gather and present findings to
law enforcement.
Dr. Laskar’s extended and uncertain legal journey
has captured national attention over the past decade,
in part from a series of articles about his case
appearing in the New York Times on January 8, 2015,
April 9, 2017 and September 21, 2020, coupled with a

2
general consensus of concern over what has happened
to him.
Laskar v. Hurd would be a perfect bookend to
Thompson v. Clark.
RESPONSE TO PETITION FOR WRIT OF
CERTIORARI
Joy Laskar responds to Petitioners Phillip Hurd and
Patrick Jenkins’s Petition For A Writ Of Certiorari to
review the Eleventh Circuit’s judgment in this case.
OPINIONS BELOW
The court of appeals’ order denying rehearing en
banc is available at Pet. App. 76-77. The opinion of the
court of appeals (Pet. App. 1-60) is published and
reported at 972 F.3d 1278 (11th Cir. 2020). The district
court’s order dismissing the first amended complaint
(Pet. App. 61-75) is unreported.
Dr. Laskar’s First Amended Complaint as filed in
the district court is available at Resp. App. 1-100.
JURISDICTION
The court of appeals entered judgment on August
28, 2020. It denied rehearing en banc on October 23,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

3
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
The Fourth Amendment to the U.S. Constitution
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. Constitution, Amend. IV.
42 U.S.C. ¶ 1983, Rev. Stat. § 1979, derived from
§ 1 of the Civil Rights Act of 1871, 17 Stat. 13, provides
in pertinent part:
Every person who, under color of any statute,
ordinance, regulation, custom or usage, of any
State or Territory, subjects, or causes to be
subjected, any citizen of the United States or
other person within the jurisdiction thereto to
the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress.

4
STATEMENT OF THE CASE
I.

COURSE
OF
PROCEEDINGS
DISPOSITION BELOW.

AND

On September 28, 2018 Dr. Laskar filed a
Complaint in the United States District Court for the
Northern District of Georgia, Atlanta Division, alleging
a claim for malicious prosecution against Petitioners
pursuant to 42 U.S.C. § 1983. On November 7, 2018
Petitioners filed a Rule 12(b)(6) motion to dismiss the
Complaint. Seven days later, on November 28, 2018 Dr.
Laskar filed his First Amended Complaint, Resp. App.
1-101, and on December 10, 2018 Petitioners filed a
second Rule 12(b)(6) motion to dismiss.
In both motions, Petitioners asserted that Dr.
Laskar had failed to demonstrate an essential element
to his claim – that the underlying criminal prosecution
against him had terminated in his favor. The assertion
was made despite Dr. Laskar having pled in both
complaints that criminal proceedings against him had
terminated finally and in his favor. Complaint, ¶190,
Pg 79 (“On October 5, 2016, The Honorable Robert
McBurney of the Superior Court of Fulton County
dismissed all claims presented and filed against Dr.
Laskar, terminating that legal proceeding in Dr.
Laskar’s favor.”); First Amended Complaint, Resp.
App., ¶197, Pg 92 (“On October 5, 2016, the criminal
proceedings against [Dr. Laskar] were terminated
finally and fully in his favor.”) Supporting authority
was referenced in the First Amended Complaint with
the case of Williams v. Marbut, 183 S.E. 820 (Ga. Ct.
App. 1936)(“The final termination of a criminal
case favorably to the defendant and amounting to

5
a final ending of the prosecution, is such a
termination favorably to the defendant as
constitutes a basis for a suit for malicious
prosecution.”) (emphasis supplied) Resp. App, ¶197,
Pg 92.
Because the proceedings against Dr. Laskar were
dismissed due to an expiration of the relevant statute
of limitations, Petitioners contended that the
termination provided no indication of Dr. Laskar’s
innocence, and for that reason Judge McBurney’s order
of dismissal could not be regarded as favorable for
Section 1983 purposes. Dr. Laskar responded that an
indication of innocence was not required, presenting
authority from the United States District Court for the
Northern District Court of Georgia (Atlanta Division)
holding that, “[w]hen looking at whether the
prosecution of a plaintiff terminated in his favor,
courts look to whether or not the prosecution
ended in a non-conviction final termination of a
criminal case, such as a dismissal.” Hammock v. WalMart Stores, LP, 2012 U.S. Dist. LEXIS 191773 (N.D.
Ga. July 26, 2012)(emphasis supplied).
The District Court entered an Order granting the
motion to dismiss. Pet. App. 61-75. The clerk of court
entered final judgment, and on May 1, 2019 Dr. Laskar
filed a timely Notice of Appeal.
II.

STATEMENT OF FACTS.

The criminal prosecution of Dr. Laskar arose out of
an investigation performed by Petitioners. Resp. App.,
¶1, Pg 2. Petitioners were employees of the Georgia
Institute of Technology (“Georgia Tech” or the

6
“Institute”). Dr. Laskar was an Institute faculty
Professor widely known for designing and developing
mixed signal integration circuits and chips used in
wireless and digital communications systems. Resp.
App., ¶2, Pg 3. Dr. Laskar spearheaded the
development of high performance mixed signal
solutions operating in low-power usage scenarios (i.e.,
in situations involving 100 to 1,000 times lower power
outputs than had been previously accomplished). Resp.
App., ¶20, Pg 16.
Dr. Laskar’s work produced substantially lower cost
structures and made possible the development of
technical solutions costing less than $10.00 whereas
design and build expenses previously had exceeded
$10,000.00. Id. Among Dr. Laskar’s other technical
accomplishments were (a) the original design and
development of the power amplifier (a key component
of the transmitter) used in Intel Corporation’s Centrion
Platform; (b) the development of high speed
equalization chips (i.e., techniques to preserve
information in high speed data links) used by Intersil
Americas LLC for improved data connectivity in
servers being deployed by Google, Microsoft
Corporation and Cisco Systems; and (c) the
development of technology building blocks for the
miniaturization of military grade radar systems affixed
to chips. Resp. App., ¶21, Pg 17.
A. Dr. Laskar’s Sparkling Professional
Record.
Upon earning his Doctorate degree in Electrical
Engineering, Dr. Laskar began work as a Research
Engineer at the IBM Thomas J. Watson Research

7
Center in New York. Resp. App., ¶24, Pg18. There, Dr.
Laskar focused on Cryogenic CMOS. Cyrogenics is a
branch of physics dealing with the production and
effects of very low temperatures. CMOS, or
complementary metal-oxide-semiconductors, is a
technology used in constructing integrated circuits. The
technology is employed in microprocessors,
microcontrollers, static RAM and other digital logic
circuits. Cyrogenic CMOS are currently under
evaluation as point-contact HPGe detectors (i.e.,
hyperpure germanium detectors) with respect to deep
space dark matter search and neutrino
experimentation. Id.
Dr. Laskar joined Tech’s faculty in 1995 as an
Assistant Professor. Resp. App., ¶26, Pg 18. Two years
later he was promoted to Associate Professor. In 2002
he became a full Professor and was simultaneously
named the Joseph M. Pettit Professor of Electronics.
Resp. App., ¶27, Pg 191 Dr. Laskar’s research was
focused on the emerging field of mixed signal design
technology.
In 2003 Dr. Laskar helped to found Tech’s Georgia
Electronic Design Center (“GEDC”). He became its first
Director. GEDC was conceived as a cross-disciplinary
electronics and photonics research center, focused on
development of high-speed electronic components and
signal processing. Resp. App., ¶28, Pg 18. Dr. Laskar
worked to establish partnerships between GEDC and
1

Joseph Mayo Pettit was an engineer who became dean of the
Stanford University School of Engineering from 1958 to 1972. He
served as president of the Georgia Institute of Technology from
1972 to 1986.

8
prominent technology companies from around the
world. These firms provided grant and/or research
monies to GEDC and its affiliated Institute
organizations. They did so to be able to work closely
with Georgia Tech faculty members on advanced
research projects. More than $70 Million in managed
grants and research contracts were secured by Dr.
Laskar, either as Principal Investigator or Co-Principal
Investigator. Id.
Dr. Laskar became one of the most productive
Institute faculty members as measured by grants and
research contracts received. Well-known companies
such as Hewlett-Packard, Texas Instruments, General
Electric, National Semiconductor Corporation,
Samsung, Bellsouth, IBM, Northrop Grumman, and
Microsoft Corporation funded grants and research
contracts because Dr. Laskar was involved. Key
governmental organizations such as NASA, the U.S.
Army, the U.S. Navy and The National Science
Foundation did so as well. Resp. App., ¶29, Pgs 19-20.
All were eager to participate because Dr. Laskar had
helped to make Georgia Tech the place to be in wireless
mixed signal technology. Resp. App., ¶5, Pg 6. GEDC
also provided an unparalleled learning laboratory for
students interested in such research. Today, the Center
has more than 15 active faculty and over 100 graduate
and undergraduate students. Tech promotes the Center
as “one of the world’s largest university-based
semiconductor research centers.” (www.gedc.gatech.
edu). Resp. App., ¶29, Pg 20.
A key objective of both GEDC and Georgia Tech was
advanced by Dr. Laskar’s charismatic leadership and

9
leading-edge research. Georgia Tech historically
encouraged faculty to found commercial entities to
advance the dissemination of their research technology
to the public at large. It regarded that as part of its
mission as a publicly supported educational institution.
The Institute was engaged in a concerted effort to
emulate and even surpass the success of peer
technology institutions like Stanford and MIT in the
incubation and spin-off of technology companies. Resp.
App., ¶35, Pg 22. Though intellectual property created
by its faculty members always remained the property
of Georgia Tech, and was placed in the legal custody of
an affiliated Tech entity called the Georgia Tech
Research Corporation (“GTRC”), faculty members
responsible for its creation could license the technology
from GTRC and use their own companies to
commercialize it. Resp. App., ¶37, Pgs 23.
Dr. Laskar founded several companies, and one,
Sayana Wireless, LLC, was focused on the mixed signal
technology space. Georgia Tech encouraged Dr. Laskar
to have Sayana join GEDC as a member company. It
also encouraged Sayana to apply to VentureLab for
support as an internal start-up company. Resp. App.,
¶35, Pg 22. Dr. Laskar owned a majority member
interest in the company, and GTRC was granted a 10%
member interest of its own. Resp. App., ¶34, Pg 34;
¶40, Pg 24-25. Sayana’s prospects gradually progressed
to the point that Dr. Laskar was looking for investment
capital and/or purchasers for the company, Resp. App.,
¶41, Pg 25, making the interests of Sayana and GTRC
further aligned. Sayana was scheduled to be sold by
private auction on May 17, 2010 pursuant to a
transaction managed and executed by Pagemill

10
Partners of Silicon Valley, California. Sayana had paid
$50,000 to Pagemill Partners to arrange, advertise and
manage the auction sale. Seventeen (17) different
companies conducted a pre-sale investigation of Sayana
and were identified as potential bidders. Resp. App.,
¶¶183-185, Pg 86. It was anticipated Sayana would
receive bids and sales proceeds totaling approximately
$30 Million. It was understood GTRC would receive
10% of that expected sum, or approximately $3 Million.
Resp. App., ¶41, Pg 25; ¶¶183-185, Pg 86.
Dr. Laskar’s several accomplishments did not go
unnoticed, and he became something of an academic
star. He held over 50 patents in the field of 60GHz
mixed signal design. He was the author of five books
and more than 600 peer review journal and conference
articles. He served simultaneously as Faculty Advisor
for some 50 graduate doctoral students, at the time
more than any other Georgia Tech professor. Resp.
App., ¶¶2-3, Pg 3. He also received numerous
professional awards and honors. To cite just a very few,
Dr. Laskar was named a Fellow of the Institute of
Electrical and Electronic Engineers in 2005. He was
the recipient of Georgia Tech’s “Outstanding Faculty
Research Author” Award in 2007. In 2008, he was
presented with the Georgia Tech ECE’s Distinguished
Mentor Award. And in 2010 Dr. Laskar was named
Chair of the Institute of Electrical and Electronic
Engineers MTT-S Executive Committee. Resp. App.,

11
¶4, Pgs 3-5. These recognitions brought increased
attention to GEDC and Georgia Tech.2
Students at Georgia Tech were key beneficiaries of
Dr. Laskar’s work. The participation of so many
outstanding companies and governmental entities
delivered cache to GEDC as it sought to attract the
very best doctoral candidates. Once enrolled, these
students sought assignment to faculty members who
performed cutting-edge research work. Working closely
on projects with their faculty advisors, students were
able to utilize the extensive laboratory facilities made
available to them by GEDC and to take advantage of
the sophisticated equipment and chip technology
housed within them. Students were able to make
important contributions to emerging new technologies
while they pursued their studies and prepared master
and/or doctoral theses. Resp. App., ¶6, Pgs 7-8.
B. The Investigation and
Prosecution of Dr. Laskar.

Criminal

1. Initiation Of The Investigation.
In December 2009 Jilda Garton, Georgia Tech’s
Associate Vice Provost for Research, and the General
Manager of GTRC, together with Mark Allen, the
Institute’s Senior Vice Provost for Research and
Innovation, began discussions with Appellee Phillip
Hurd, Georgia Tech’s Chief Audit Executive, regarding
cost overruns totaling $644,338 related to a contract

2

A complete listing of Dr. Laskar’s recognitions and awards are set
forth in paragraph 4 of Appellant’s First Amended Complaint.
Resp. App., ¶4, Pgs. 3-5.

12
with National Semiconductor Corporation (“NSC”).
Resp. App., ¶54, Pg 31. Ms. Garton and Mr. Allen
wanted to understand how these overruns had
occurred. Mr. Hurd initially reported that he thought
them to be the result of some kind of “colossal
accounting screwup.” Resp. App., ¶54, Pg 31.
Soon after, on January 5, 2010, but before Mr. Hurd
had completed his investigation, Ms. Garton emailed
Mr. Allen to report, “We need to go ahead and move
GEDC’s National Semiconductor costs totaling
$644,338 off GTRC’s books in the third quarter of FY
2010.” Resp. App., ¶55A, Pgs 31-32. Ms. Garton
reported that “the options to consider are to transfer
the costs back to the PIs’ [Principal Investigators’]
schools, write them off, transfer them to GEDC, or
develop a repayment plan.” Ultimately, she wrote, the
costs should be brought “back to GEDC where Chris
Evans [GEDC’s Director of Operations] has said that
the charges are not GEDC charges but that each PI is
responsible.” Id. Ms. Garton let Mr. Allen know that he
was among the listed Principal Investigators. Mr. Allen
also bore responsibility for the asserted problem
because the Provost’s Office, in which he worked, had
management responsibility over GEDC.
Ms. Garton was also concerned by another, larger
cost overrun involving Samsung, and totaling some
$1.4 Million, which she also wanted off of GTRC’s
books. Id. Cost overruns were sometimes carried on the
books of GTRC as repayment programs were devised
and executed, or carried for a period of time before
being written off completely. But at this time Ms.
Garton was confronting the Great Recession years of

13
2009 and 2010, when public university budgets were
tight. Ms. Garton was worried overruns being carried
on GTRC’s books would reflect poorly on GTRC and on
her, fueling her sense of urgency. In conversations had
with Internal Audit employee Larry Webster, Ms.
Garton expressed concern that research work being
done by employees of Samsung, one of the companies
Dr. Laskar had recruited, was becoming mixed up with
work that GEDC was doing for Samsung under a
separate contract. Resp. App., ¶55B, Pg 32. Ms. Garton
was focused on Dr. Laskar, prompting her to inform
Mr. Webster that “GEDC Director [Joy Laskar] has, or
is employed by a nonGT company.” She then cast doubt
on his integrity by remarking that she was “unsure as
to his level of effort between his GT job and his other
job.” Resp. App., ¶55C, Pg 32.
On January 15, 2010 Mr. Allen emailed Phillip
Hurd to state, “It has come to my attention that there
may be some irregularities regarding certain research
accounts from National Semiconductor (sponsor) that
were handled through the Georgia Electronic Design
Center (GEDC) several years ago. In particular, there
is concern that work was double-spent due to potential
issues with invoicing through GTRC and GTF [the
Georgia Tech Foundation]. The amount involved is
substantial (on the order of $600K). Multiple PIs
[Principal Investigators] from the School of ECE
[Electrical and Computer Engineering] expended the
funds, and GEDC may have also expended the funds
(thus the double-spending). In order to understand
what happened, I request that Internal Audit conduct
a study of this issue, determine whether or not the
funds were double-spent, . . . and identify appropriate

14
changes and controls that will prevent these issues
from occurring in the future. Jilda [Garton] has
assembled a large amount of paperwork on this issue
and I would ask that you or someone on your staff
please get in touch wither her, understand the
situation (from GTRC’s point of view), collect other
points of view and documentation as appropriate, and
prepare a plan to determine how we can resolve the
issues above, . . .” Resp. App., ¶55E, Pgs 32-33.
In January 2010, Dr. Laskar and Mr. Allen began
discussions between them on the implementation of a
plan to reduce the cost overruns attributed to
Samsung. Dr. Laskar was eager to assist, and his
dialogue with Mr. Allen involved a plan to reduce
GEDC expenses, identify and secure new funding to
apply against the overrun, and limit salary and other
expenses so that doctoral students working at GEDC
would not be terminated. The two men began proactive steps, and progress aimed at reducing the
overrun was being demonstrated. Resp. App., ¶55G,
Pgs 33-34.
But even as these positive developments were
taking shape, Ms. Garton was seeking formal
expansion of the investigation involving NSC in order
to help GTRC contend with outside auditors leveling
pointed questions why her organization was still
booking cost overruns that remain unpaid. After
attending several meetings with Ms. Garton and
others, Mr. Hurd determined that he would expand his
investigation into an audit of all GEDC finances. Resp.
App., ¶¶55K, Pgs 35.

15
2. Internal Audit’s 2010 Report.
Within just weeks of being issued this expanded
scope, Mr. Hurd and his team produced an Official
Report of Suspected Malfeasance dated April 14, 2010.
Resp. App., ¶56, Pg 35. The Report was delivered to
John M. Fuchko, III, then Associate Vice Chancellor for
Internal Audit at the Board of Regents of the
University System of Georgia, and to other officials at
Georgia Tech, including the Institute’s Chief Legal
Officer. Through Power Point presentations, Mr. Hurd
later shared the information with the State Attorney
General’s office and the Georgia Bureau of
Investigation (“GBI”). Mr. Hurd and his team reported
that Dr. Laskar had made misrepresentations to the
IRS, and had misused building space, lab facilities, and
equipment belonging to Georgia Tech to further the
interests of Sayana. Dr. Laskar was reported to have
violated Georgia Tech policies and procedures and
committed violations of Georgia statutory law, which
Hurd identified as falling under O.C.G.A. § 40-10-23,
O.C.G.A. § 40-10-25, and United States Code Title 18,
Part I, Chapter 46, § 1001. Resp. App., ¶57, Pgs 36.
The Georgia Code does not contain either of the two
provisions which Mr. Hurd cited. Mr. Hurd took it upon
himself to contact the IRS to raise questions about
Sayana and Dr. Laskar, which prompted the IRS to
contact Dr. Laskar. But after an extended examination,
the IRS concluded there were no penalties due. Id.
Significantly, none of the investigative findings was
disclosed to Dr. Laskar prior to their report to law
enforcement. Mr. Hurd also never produced a final
report of his suspected findings. He referred to them

16
originally as part of a “preliminary audit report.” Resp.
App., ¶60, Pg 37. In meetings had with Georgia Tech
officials, a representative of the Board of Regents, and
the Senior Assistant Attorney General for the State of
Georgia, Mr. Hurd utilized a PowerPoint summary of
his preliminary report to explain his findings. Id.
These were the findings which Institute officials,
representatives of the Board of Regents, the Senior
Assistant Attorney General, and GBI personnel
proceeded to accept.
Reporting that computers, documents and other
evidence would likely be in the possession of Dr.
Laskar and others, Mr. Hurd recommended that
searches be made of these likely sources. A plan quickly
evolved to raid Dr. Laskar’s offices, residence, vehicles
and to seize computers and other evidence wherever
found. On April 21, 2010 Mr. Hurd email the Institute’s
Chief Legal Officer to report “the bulldozer is in full
speed.” Mr. Hurd’s team actively encouraged the
investigation and prosecution which followed. Mr. Hurd
personally accompanied GBT Special Agent Lisa
Vorassi to court appearances before Judges in the
Fulton and Cobb County Superior Courts, where search
warrant requests were presented. Ms. Vorassi and Mr.
Hurd asked the Judges to order that non-law
enforcement employees of Georgia Tech could be
present when GBI search warrants were executed, and
to order that computers seized during these searches
did not have to be taken to the GBI computer forensic
lab but could be removed to the offices of Georgia
Tech’s Department of Internal Auditing. Resp. App.,
¶66, Pgs 38-39. Mr. Hurd requested that GBI Special
Agent Wesley Horne be specially appointed to work

17
with him, something which Senior Assistant Attorney
General David McLaughlin typically did not do, but
then did. Resp. App., ¶62, Pg 37. Mr. Hurd also tasked
one of his Internal Audit officers, Patrick Jenkins, to
accompany Ms. Vorassi when witnesses were
questioned. Mr. Jenkins conducted a significant
proportion of that questioning himself. Resp. App.,
¶¶168-182, Pgs 83-85.
Search warrants subsequently executed at more
than 20 different locations were based on an Affidavit
submitted by GBI Agent Lisa Vorassi. Resp. App.,
¶¶67-73, Pgs 39-45. Ms. Vorassi attested and declared
that all substantive findings and information had come
from Philip Hurd. “Unless otherwise indicated, all facts
presented herein are derived from my conversations
and communications with Mr. Hurd.” Id.
But the factual findings and charges set forth in the
Affidavit were false and untrue. Notably, the entire
investigation of Dr. Laskar, GEDC and other Institute
personnel respecting their use of plant facilities,
equipment, chip technology, and chip prototypes was
unreasonably limited in scope. It was deliberately
circumscribed to yield evidence pertaining only to Dr.
Laskar and Sayana, making the results devoid of
context and erroneous. What Dr. Laskar and Sayana
were accused of improperly doing was never evaluated
against what other GEDC companies and faculty
members had done and were doing. Had just a
reasonable degree of diligence been exercised, and had
information elicited from one source been
conscientiously checked against that derived from
others, Mr. Hurd’s team would have known their

18
findings were untrue. Hurd was forced to confront and
concede the lack of truth and diligence supporting the
bulk of his reported findings when he later testified at
Georgia Tech evidentiary hearings addressing Dr.
Laskar’s continued employment with the University.
Even then, Petitioners took no action to correct the
record with the State Attorney General’s Office, letting
the prosecution they had set into motion continue.
This approach likely explains why Mr. Hurd refused
to give Dr. Laskar an opportunity to know he was being
investigated, or a chance to respond to the findings that
were about to be reported. Indeed, Mr. Hurd seemed
indifferent to whether the information he was reporting
was true.3 Resp. App., ¶166, Pg 82. The investigation
was conducted seemingly as a pre-determined exercise,
aimed at placing blame on Dr. Laskar for accounting
irregularities for which he was not responsible but had
voluntarily worked with Mr. Allen to address.

3

On April 7, 2010, one week before his formal Report was to be
delivered, Mr. Hurd emailed Mark Allen, and Jilda Garton to
encourage them to review certain supporting data which he had
provided in an initial briefing for them, and to do so in anticipation
of a further meeting that was to be held on Friday, April 9, 2010.
Dr. Laskar was to be present at that Friday meeting. Mr. Allen
emailed back to ask if it wasn’t “appropriate to give Joy some
background prior to the meeting so he does not feel surprised,” to
which Mr. Hurd responded: “Probably not. I will only be touching
on major issues. He should know this and his ‘surprise’ will give
him less time to think of a ‘creative’ response.” (Email exchange by
and between Phillip W. Hurd and Mark G. Allen dated April 7,
2010).

19
(a)

A Snapshot of Phillip Hurd’s
False Report.

The falsity of Mr. Hurd’s Report can be
demonstrated by examining one of its most important
factual findings, respecting computer chips. Mr. Hurd
reported that Dr. Laskar and Sayana had fraudulently
deceived Georgia Tech into paying for chips
manufactured by a French company called Circuits
Multi-Purpose (“CMP”). Mr. Hurd reported to Agent
Vorassi that Dr. Laskar had fraudulently induced
Georgia Tech to pay for the chips, resulting in damages
to the Institute which “may be as great as $700,000 to
$1,470,000.” Resp. App., ¶111, Pg 61. Not even one year
later, Mr. Hurd was forced to acknowledge under oath
he had no evidence that Dr. Laskar had taken or used
any of the CMP chips for which Georgia Tech
reportedly paid such sums. Resp. App., ¶112, Pg 61.
Mr. Hurd had earlier reported to Agent Vorassi that
Sayana had entered into several contracts for
subsequent sale and delivery of the chips, including
ones with a South Korean company called Electronics
and Telecommunications Research Institute (“ETRI”).
But these chips were not final, functional chips, as Mr.
Hurd had reported; they were chip prototypes being
delivered to ETRI pursuant to a Collaborative Research
Agreement. Once delivered, ETRI would subject the
chip prototypes to testing and evaluation. The chip
prototypes had no value in the marketplace because
they were not final, functional chips. Dr. Laskar and
Sayana did not defraud Georgia Tech because they did
not receive monies of any kind. Indeed, because they
were chip prototypes, all were available for research by
students working under GEDC’s faculty and member

20
companies. And because they were designated for
research, the chips could be acquired with unrestricted
University funds. Senior Vice Provost Mark Allen
specifically testified to this point. Resp. App., ¶130, Pgs
67-68. Indeed, chips from all manufacturing runs
ultimately became the subject of research and written
research papers by students and doctoral candidates at
Georgia Tech. Confirmation that the chips were used
for permissible research purposes was supplied not
only by Mr. Allen but also by Georgia Tech research
students in the School of Electrical and Computer
Engineering. Resp. App., ¶¶119-129, Pgs 63-67.
Mr. Hurd was forced to acknowledge under oath
that he had examined Sayana’s VentureLab application
and had learned that part of Sayana’s proposed
VentureLab funding was to provide chip prototypes to
customers. Mr. Hurd testified that Sayana’s application
to VentureLab specified that funding for Phase 1 and
Phase 2 would go toward chip prototypes and the
testing of chips, prompting him to concede, “There’s
nothing wrong with GEDC making prototype chips.”
Mr. Hurd admitted that he now knew the chips
provided by Sayana to ETRI were prototype chips and
test chips so that they could be evaluated to see if their
chip technology worked properly. He also stated that he
now knew the chips could not be resold. Resp. App.,
¶106, Pgs 58-59. Despite these several
acknowledgements, Mr. Hurd never contacted State
prosecutors to request that they stand down.

21
(b)

A Snapshot of Patrick Jenkins’s
Incomplete And Misleading
Investigation.

Mr. Hurd’s deputy, Petitioner Patrick Jenkins,
demonstrated a lack of evidentiary support for findings
which he advanced respecting Dr. Laskar and Sayana.
Mr. Jenkins testified under oath that Sayana
employees had used Cadence software belonging to
Georgia Tech and that such usage was wrongful. Resp.
App., ¶89, Pg 53. Mr. Jenkins later acknowledged he
had done so because he found no written agreement
between Sayana and Georgia Tech authorizing use.
Resp. App., ¶89, Pg 53. Mr. Jenkins did not discover
such a writing because all GEDC companies had
electronic access to Georgia Tech’s Cadence software.
Resp. App., ¶92, Pg 54. Mr. Jenkins admitted that he
did not pull up logs for other GEDC member companies
to see if they enjoyed electronic access to Cadence
software, or inquire why. He stated he “only looked at
the log for the [sic] Sayana,” explaining “I was not
directed to look at other GEDC members. I was
directed to look at Sayana.” Mr. Jenkins testified he did
not review GEDC policies on the subject, as any
reasonable investigator would do, again because he had
not been directed to do so. Resp. App., ¶96, Pg 55.
Mr. Jenkins also testified he had no evidence to
show that a group of GEDC member companies whose
names appeared on a map of Georgia Tech’s Technology
Square Research Building (“TSRB”) - G-Tronix, Tepyt,
Terabit, Quellan, Agilent, Microsoft, Neuromorphix,
Whiper, Sienna and OFS - had contracts in place or
were being billed at or through a cost center for their

22
use of the space, or had contracts authorizing the use
of computers, CAD machines, and laboratory
equipment. Had he investigated properly, he would
have learned that no companies were subject to
contracts or cost center processes. Jenkins explained
that his evidentiary omission was due to the fact he
“was only directed to look at Sayana” and no other
companies whose practices might have been relevant.
Resp. App., ¶93, Pg 54-55. He testified he had no
evidence to show the use of a cost center because he
“was not asked to look at it.” Id.
In a written sworn statement submitted at the
hearing at which Mr. Jenkins testified, Professor Paul
Hasler of the School of Electrical and Computer
Engineering, and the founder of two start-up
companies which became GEDC members, stated that
the benefits of GEDC membership included access to
and the use of space within the TSRB building when
available. Resp. App., ¶78, Pg 47. Professor Hasler also
reported that “some of the benefits of GEDC
membership included the right to use Georgia Tech
computers on a dual-use basis, access and use to
laboratory equipment, space and equipment, [and]
access and use of CAD and other design tools , , ,” Resp.
App., ¶98, Pg 56. He noted that “Georgia Tech faculty
are allowed and encouraged to utilize laboratory
resources to develop technology in their lab and/or
research group to where it could be commercially
transitioned, either through licensing or start-up
activities.” Professor Hasler also explained that “many
of my colleagues . . . have utilized Institute resources
for developing technology to a level for commercial
transition attempt. It is my understanding that this is

23
standard practice or procedure at Georgia Tech.” Id.
But again, once confronted with these contradictions
Petitioner Jenkins made no revised report to his
superiors, or to any members of the State Attorney
General’s prosecution team.
Mr. Jenkins was well embedded with these officials;
he was tasked with assisting the GBI in conducting
witness interviews and did so with at least 13 such
witnesses. Mr. Jenkins either assisted the GBI Agents
with their questioning or conducted the questioning all
by himself. Resp. App., ¶¶168-180, Pgs 83-85. Mr. Paul
Freet, the Principal at VentureLab, a Georgia Tech
related entity providing financial support for potential
spin-out companies at Tech, reported that almost all of
the questions he was asked by investigators were
propounded by Georgia Tech Internal Audit employees,
not the GBI agents. He also reported that Tech
employees appeared to be running the questioning but
did not appear to be familiar with VentureLab or the
spin-out process. Resp. App., ¶180, Pg 85.
These examples are but the proverbial tip of the
iceberg. Respondent’s First Amended Complaint details
pages and pages of investigative findings and charges
being contradicted by clear, forthright and irrefutable
evidence delivered by other Georgia Tech professors,
administrators, and research students. Resp. App.,
¶¶67-189, Pgs 39-85. The Report of wrongdoing issued
by Petitioners against Dr. Laskar and his company was
extravagantly false and untrue, and the investigative
methodology supporting it was remarkably deficient.
It bears noting that the GBI searches and seizures
were timed to occur on the same day that Sayana

24
Wireless, LLC was scheduled to be sold at auction sale.
Performance of the raids caused the sale’s cancellation.
The fact that GTRC stood to gain some $3 Million from
the sale was apparently of no moment to Petitioners.
What does appear important to them was that Dr.
Laskar would become tarred with the stench of
criminality, the cost overruns would then be seen as
Dr. Laskar’s sole and exclusive responsibility, and Dr.
Laskar himself, by reason of the massive legal process
unleashed against him, would be helpless to respond.
The Professor would instead be preoccupied with the
all-consuming task of salvaging his career, sheltering
his family, and preserving his personal liberty.
III.

REASONS
PETITION.

FOR

GRANTING

THE

On March 8, 2021, this Court granted certiorari in
Thompson v Clark, No. 20-659, to resolve a circuit split
on the applicable favorable-termination test for Section
1983 malicious prosecution claims. The question
presented and accepted in Thompson specifically notes
that Supreme Court review is necessary because of the
Eleventh Circuit’s decision in this case. As noted,
Respondent urged below for adoption of the “not
inconsistent with innocence” test, presenting case
authorities, opinions and argument highlighting the
substantially more just character of that same test.
The facts of this case effectively highlight why this
Court’s forthcoming decision will be important to
criminal case defendants from all walks of life. The
Court’s decision will impact not just persons whose
reported and purported unlawful conduct involves a
specific confrontation with law enforcement. It will be

25
just as momentous for persons who are subjected to
criminal prosecution based on false, misleading and
materially incomplete investigations performed by
state actors who gather and present their findings to
law enforcement.
Dr. Laskar’s extended and uncertain legal journey
has captured national attention over the past decade.4
Laskar v. Hurd would be the perfect bookend to
Thompson v. Clark.
A. The “Not Inconsistent With Innocence”
Test Is Both Just And Consistent With
The Realities Of Prosecutorial Case
Management.
In the case of Smith-Hunter v. Harvey, 95 N.Y.2d
191, 734 N.E.2d 750 (Court of Appeals of New York,
July 6, 2000), New York State’s highest court explained
that, under New York law, “any final termination of a
criminal proceeding in favor of the accused, such that
the proceeding cannot be brought again, qualifies as a
favorable termination for purposes of a malicious
prosecution action.” Addressing a speedy trial
dismissal, the court ruled that such a dismissal was
4

Wingfield, N. (2015, January 8). ‘Former Georgia Tech
Engineering Professor Indicted on Racketeering Charges’. New
York Times, Business, Innovation, Technology Section (online
only).
Wingfield, N. (2017, April 9). ‘Ex-Professor Says Dismissed
Racketeering Case Is Still ‘Devastating’’. New York Times, B3.
Metz, C. (2020, September 21). ‘Ex-Georgia Tech Researcher Can
Proceed With Lawsuit Against University Officials’. New York
Times, B4.

26
“not inconsistent with innocence” and thus constituted
a favorable termination.
The referenced test is different from the “indication
of innocence” standard adopted by seven Circuit Courts
of Appeal. In a separate concurring opinion filed by
Judge Rosenblatt in Smith-Hunter, the Judge explains
how the two rules evolved, principally because, he
writes, of “infelicitous language in the Restatement
(Second) of Torts § 660, comment a.” Smith-Hunter,
supra, at 756. Judge Rosenblatt observed that an
“indicative of innocence” test saddles plaintiffs with a
burden often difficult if not impossible to prove in
speedy trial cases. Most of the time, he wrote, speedy
trial dismissals do not indicate innocence. Typically,
such dismissals are “neutral and do not suggest guilt,
innocence or anything other than the fact that the time
ran out.” Id. at 757. Speedy trial dismissals “may be
the product of understaffing, imperfect case
management, inefficiencies in detainer filings or
interstate rendition, turnover of personnel,
bureaucratic delay, misunderstanding, police
department or prison delays, misplaced files, demands
of other States or jurisdictions or the difficulty of
tracking witnesses – or simply allowing a weak case to
languish – to name a few of the more common reasons.”
Id.
A speedy trial dismissal, the Judge explained, may
reflect a prosecutor’s belief that the case cannot be
proved. Id. But even then “the reasons are not
necessarily indicative of innocence,” he wrote. Id. In
prosecuting a possessory crime, for example, the
district attorney “may drop the case, unconvinced of

27
defendant’s ever having possessed the contraband at
all, or because the police seized it from defendant’s
possession in violation of the Fourth Amendment. Or
because the contraband was lost somewhere in the
evidence room, or mistagged.” Id.
Usage of the “not inconsistent with innocence” test
in speedy trial cases, explained Judge Rosenblatt,
would mean that New York courts would no longer
have to engage in “jurisdictional gymnastics or
semantics.” Id. The “indicative of innocence” rule, on
the other hand, potentially bars recovery by deserving
plaintiffs whose criminal cases are dismissed on
neutral grounds. Judge Rosenblatt noted that “the
cases that satisfy a malicious prosecution claim are
often weak from a prosecutorial standpoint. Given that
prosecutors generally will be more likely to neglect a
weak case than a strong one, the ‘indicative of
innocence’ standard creates, he said, a paradox.” Id. In
hypothetical Case One, a complainant bent on malice
causes the arrest of a wholly innocent person with
trumped up allegations. The accused wants vindication,
but the prosecution drags its feet, believing the case
lacks merit. Eventually, the criminal court grants the
accused’s speedy trial motion for dismissal. In Case
Two, a more measured and credible complainant
provides a meritorious case more likely to sustain the
prosecutor’s interest. He takes it to trial, but then the
jury acquits. Id. at 758.
Judge Rosenblatt explains that, under the
“indicative of innocence” rule, only the second accused
gains a “favorable” termination. The first does not,
“even though the accusation was trumped up and

28
malicious.” Id. “The more far-fetched the accusation,
the greater the likelihood the case will be dismissed on
speedy trial grounds, thereby dooming the accused’s
subsequent malicious prosecution suit. In the end, the
most wrongly maligned are the least likely to gain civil
redress.” Id.
For that reason, explains Judge Rosenblatt, New
York’s highest court acted correctly in applying the “not
inconsistent with innocence” test, ensuring that “a
potentially deserving plaintiff whose criminal case was
dismissed by a neutral speedy trial termination
satisfied the favorable termination element.” Id. 5
B. Criminal Cases Are Designed To Assess
Guilt Beyond A Reasonable Doubt and
Not To Adjudicate Innocence.
‘”[A]xiomatic and elementary,’ the presumption of
innocence of innocence ‘lies at the foundation of our
criminal law.’” Nelson v. Colorado, 137 S. Ct. 1249,
1255-56 (2017)(quoting Coffin v. United States, 156
U.S. 432, 453 (1895)); see also Taylor v. Kentucky, 436
U.S. 478, 483 (1978) (“The Coffin Court traced the
venerable history of the presumption from
Deuteronomy through Roman law, English common
law, and the common law of the United States.”). The
presumption is maintained until a conviction. Herrera
v. Collins, 506 U.S. 390, 398-99 (1993), and it applies
anew once a conviction is set aside, Nelson, 137 S. Ct.
5

Despite the holding in Smith-Hunter, the Second Circuit Court of
Appeals applies the indication of innocence standard. Lanning v.
City of Glen Falls, 908 F.3d 19, 26 (2d Cir. 2018)(citing
Restatement (Second) of Torts, § 660 comment a)

29
at 1255 n.8; id. at 1259 n.1 (Alito, J., concurring in the
judgment).
Of equal foundational significance is the
requirement of proof beyond a reasonable doubt. It
“plays a vital role in the American scheme of criminal
procedure” and “provides concrete substance for the
presumption of innocence.” In re Winship, 397 U.S. 358,
363 (1970); Apprendi v. New Jersey, 530 U.S. 466, 47778 (2000). “[T]he Due Process Clause protects the
accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute
the crime with which he is charged.” In re Winship, 397
U.S. at 364.
The large number of criminal proceedings occurring
each day in the United States necessarily focus on a
single question respecting liability - whether the
government can show through reliable evidence that
the defendant, who is presumptively innocent, is in fact
guilty beyond a reasonable doubt. A criminal
proceeding that fails adequately to address that
question will not be permitted to stand. Jackson v.
Virginia, 443 U.S. 307, 321-24 (1979).
Given that the American criminal system is
basically disinterested in whether a defendant can
prove innocence - this Court has made clear that
defendants cannot be required to introduce evidence of
their innocence, Sandstrom v. Montana, 442 U.S. 510,
524 (1979) - the existence of a rule that an individual
who faces prosecution must establish that her criminal
proceedings concluded in a manner indicating her
innocence to be able to demonstrate a federal

30
constitutional violation is at extreme odds with the
foundational principles just described.
C. When Criminal Proceedings Terminate
In Favor Of A Defendant There Is Rarely
An Opportunity To Adjudicate
Innocence.
To require proof that criminal proceedings have
been terminated in a manner indicating innocence
ignores what actually occurs each day in criminal
courtrooms across the country. Criminal cases that do
not result in a judgment of conviction nearly always
conclude without an opportunity to adjudicate a
defendant’s innocence.
Cases which terminate in favor of a defendant after
the legal process begins but before trial occurs never
present a defendant the opportunity to offer evidence
of innocence. This is true where a grand jury declines
to indict, as it will have considered only the evidence
presented by the prosecutor. It is also true when the
prosecutor dismisses charges. The reasons for such a
dismissal are endless. Lost evidence, an uncooperative
but necessary witness, or an order suppressing the use
of essential evidence can all prompt a prosecutor to
dismiss. Also, the need to focus prosecutorial resources
elsewhere, the prosecutor’s reevaluation of the
evidence, or the compelling results of further
investigation can all play a part. Whatever the reason
– and this listing is by no means exhaustive - a
prosecutor will rarely state it on the record. More likely
to be given is a general and ambiguous statement that
dismissal is being taken “in the interests of justice.”
Indeed, the law requires nothing more. See e.g., N.Y.

31
Crim. Proc. Law §§ 170.40 & 210.40. In large
jurisdictions, most misdemeanor and felony cases are
dismissed. Surrell Brady, Arrests Without Prosecution
and the Fourth Amendment, 59 Md. L. Rev. 1, 3 (2000).
There will be a limited procedural or factual record in
such cases, and the prosecutor’s reasons for dismissal
will likely be unknown or ambiguous.
Cases which are tried but concluded with an
acquittal are effectively no different. An “acquittal on
criminal charges does not prove that the defendant is
innocent; it merely proves the existence of a reasonable
doubt as to his guilt.” United States v. One Assortment
of 89 Firearms, 465 U.S. 354, 361 (1984); see also
Savory v. Cannon, 947 F.3d 409, 429 (7th Cir. 2020) (en
banc) (noting that the acquittal addressed in
McDonough v. Smith, 139 S. Ct. 2149, 2161 (2019), is
“another resolution that does not necessarily imply
innocence”). This Court has held that a judge may
acquit for reasons unrelated to innocence, Evans v.
Michigan, 568 U.S. 313, 318-21 (2013). And while an
individual defending prosecution may present strong
evidence of innocence at trial, the acquittal itself does
not reflect a conclusion that the individual is innocent.
Finally, relief granted following a conviction usually
does not adjudicate innocence, excepting only those
rare exceptions where actual innocence is established.
Most commonly granted grounds for relief on appeal
are trial errors, which entitle the defendant to a new
trial, without an evaluation of guilt or innocence.
Where convictions are reversed because the evidence is
insufficient to sustain them, the decisions do not reflect
a finding of innocence. Jackson, 443 U.S. at 310 n.13.

32
Collateral attacks on convictions in state or federal
court can be made on a number of grounds, but these
are unrelated to innocence. See, e.g. Strickland v.
Washington, 466 U.S. 668 (1984) (ineffective assistance
of counsel); Kyles v. Whitley, 514 U.S. 419 (1995)
(suppression of exculpatory evidence). A person who is
convicted might secure executive clemency, but such an
act is in most instances an act of forgiveness, not an
acknowledgment of innocence. Logan v. United States,
552 U.S. 23, 26 (2007). Only a finding of “actual
innocence” in a post-conviction proceeding, or a pardon
based on innocence, are the rare, post-conviction
vehicles by which an adjudication of innocence occurs.
Given that innocence is never adjudicated before a
criminal trial or with the factfinder’s return of an
acquittal, and almost never during post-conviction
proceedings, it seems highly inconsistent to condition
the filing of a constitutional claim on proof that the
prior criminal proceeding ended in a manner indicating
innocence – inconsistent with how the American
criminal justice system is designed and operates in
practice.
D. 42 U.S.C. § 1983 Was Enacted To Remedy
And Deter Violations of the Constitution
by State Actors During
Criminal
Proceedings.
Section 1983 remedies deprivations of rights
protected by federal law, including the Constitution. 42
U.S.C. § 1983; Oklahoma City v. Tuttle, 471 U.S. 808,
816 (1985). Section 1983 additionally serves to deter
state actors from depriving persons of federally

33
guaranteed rights. Wyatt v. Cole, 504 U.S. 158, 161
(1992).
This Court has frequently identified Section 1983 as
providing a remedy for those who have wrongly been
subjected to criminal prosecution because of
unconstitutional conduct. McDonough v. Smith, 139 S.
Ct. at 2156 (respecting fabricated evidence); Manuel v.
City of Joliet, 137 S. Ct. 911, 918-19 (2017) (respecting
unlawful detention arising after the onset of criminal
proceedings); Mitchum v. Foster, 407 U S. 225, 242-43
(1972) (respecting section 1983 injunctive relief against
state criminal proceedings entered “to prevent great
immediate and irreparable loss of a person’s
constitutional rights.”). These precedents highlight the
fact that Section 1983 is available for persons who
suffer evidence suppression or fabrication and are
wrongly seized or deprived of liberty during state
criminal prosecutions.
The decisions of lower courts requiring Section 1983
plaintiffs to demonstrate a prosecution against them
was terminated in a manner indicating innocence
undermines this important federal remedy. Requiring
such an almost-impossible-to-prove element effectively
eliminates Section 1983 claims and removes a major
deterrent to the use of manufactured evidence or the
suppression of exculpatory evidence during state
criminal proceedings.

34
E. This Court’s Decisions Do Not Include
Innocence As An Element Of Claims
Challenging Unconstitutional Detention.
To show a Fourth Amendment violation, a person
need only show (1) a seizure (2) without probable cause.
The violation occurs whether or not the person
suspected of the crime is innocent. McDonald v. United
States, 335 U.S. 451, 453 (1948); cf. Miller v. United
States, 357 U.S. 301, 314 (1958).
Similarly, innocence is not an element to a
constitutional claim that a criminal prosecution based
on fabricated evidence was a deprivation of liberty
without due process. See Napue v. Illinois, 360 U.S.
264, 269 (1959); Baker v. McCollan, 443 U.S. 137, 145
(1979) (noting that innocence “is largely irrelevant to
[a] claim of deprivation of liberty without due process
of law”). The same holds true when the liberty
deprivation is caused by suppression of exculpatory
evidence. Wearry v. Cain , 136 S. Ct. 1002, 1006 (2016)
(holding that a person is not required to show they
would have been acquitted had evidence been disclosed
but “only that the new evidence is sufficient to
‘undermine confidence’ in the verdict”).
Respondent does not believe a showing of innocence
has ever been required to establish a Constitutional
violation.
CONCLUSION
Respectfully, this case deserves a hearing before
the Court. Unquestionably, the Court’s discretion in
these matters is always preeminent, but the facts of
this case highlight why the Court’s forthcoming

35
decision is so very important to criminal case
defendants from every walk of life. It is not just those
whose conduct involves a direct confrontation with law
enforcement who will be impacted, but countless others
who find themselves subject to criminal prosecution
based on false investigations reported to police. As will
others who have no say when prosecutors choose to
move ahead with their case, or who may find their
claims dismissed because the prosecutor waited too
long to act. In each circumstance, to require a criminal
defendant to demonstrate that her case was ended with
an “indication of innocence” before she is granted the
right to redress its constitutional deprivations is
manifestly at odds with the foundational principles
upon which our American criminal system is based.
This case, considered jointly with Thompson v. Clark,
will permit the Court to render a decision illustrating
a broad range of factual scenarios. And it will assist the
Court in educating jurists, prosecutors, defense
counsel, law professors, law activists, community
advocates, and the public at large what is so much
revered and at stake in our American system of justice.
Respondents respectfully ask that certiorari be
granted.

36
Respectfully submitted,
CRAIG A. GILLEN
GILLEN WITHERS & LAKE,
LLC
400 Galleria Parkway S.E.,
Suite 1920
Atlanta, Georgia 30339
(404) 842-9700
cgillen@gwllawfirm.com

MICHAEL ALAN DAILEY
Counsel of Record
ANDERSON DAILEY LLP
2002 Summit Boulevard,
Suite 1250
Atlanta, Georgia 30319
(770) 827-6510
mdailey@andersondailey.com

Counsel for Respondent
April 21, 2021

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Plaintiff’s First Amended Complaint
in the United States District Court for
the Northern District of Georgia
Atlanta Division
(November 28, 2018) . . . . . . . . . . . App. 1

App. 1

APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CIVIL ACTION FILE
NO. 1:18-cv-4570-WMR
[Filed: November 28, 2018]
____________________________________
JOY LASKAR, Ph.D.,
)
)
Plaintiff,
)
)
vs.
)
)
PHILLIP W. HURD;
)
PATRICK A. JENKINS; JILDA D.
)
GARTON; and MARK G. ALLEN,
)
)
Defendants
)
____________________________________)
JURY DEMAND INCLUDED
PLAINTIFF’S FIRST AMENDED COMPLAINT
COMES NOW Joy Laskar, Ph.D., Plaintiff, and for
his First Amended Complaint against Defendants
Phillip W. Hurd, Patrick A. Jenkins, Jilda D. Garton,
and Mark G. Allen, filed pursuant to Federal Rule of
Civil Procedure 15(a)(1)(B), respectfully shows the
Court the following:

App. 2
INTRODUCTION
1.
Plaintiff brings this action pursuant to (a) 42 U.S.C.
§§ 1983 and 1988, (b) the Fourth Amendment to the
United States Constitution, and (c) principles of
Georgia law pertaining to the claim of malicious
prosecution. Plaintiff shows that intentionally
malicious acts and omissions of Defendants led directly
to and caused the criminal prosecution of Dr. Laskar
for the offenses of theft and racketeering. Defendants
initiated their investigation against Dr. Laskar in the
face of and contrary to longstanding practices and
procedures of and at the Georgia Institute of
Technology (hereinafter referred to as “Georgia Tech”
or the “Institute”), which practices and procedures
plainly demonstrated that Dr. Laskar had committed
no wrongdoing. Had not such practices and procedures
been willfully and recklessly ignored, but instead had
been taken into account and fairly considered, a
criminal prosecution would not have been instigated
against Plaintiff, and he would have suffered none of
the damages which Defendants caused him.
Defendants initiated, supported, and instigated an
investigatory process leading to the suspension,
termination, arrest and criminal prosecution of Dr.
Laskar that was based upon a false, misleading and
materially incomplete investigative and factual record.
The report was one which Defendants were responsible
for advancing and creating. Defendants acted
maliciously and without probable cause to instigate
and cause the malicious prosecution of Plaintiff.

App. 3
2.
When the Defendants’ investigation was begun,
ostensibly to understand why a grant research project
sponsored by the National Semiconductor Corporation
(“NSC”) had become overrun, an investigation which
failed to determine any wrongdoing by either Plaintiff
or the company he had founded, Dr. Laskar was an
esteemed and internationally prominent electrical
engineer and professor serving on the Georgia Tech
faculty. Holder of the Georgia Tech Schlumberger
Chair in Microelectronics at the Institute’s School of
Electrical and Computer Engineering, Dr. Laskar was
focused on the rapidly emerging mixed signal design
technology field. The field is one in which Dr. Laskar
holds over 50 patents. Dr. Laskar was then, and is
today, an industry leader in the field of 60GHz signal
design.
3.
Dr. Laskar is also the author of five (5) books and
more than 600 peer reviewed journal and conference
articles. Prior to the termination of his employment as
full Professor, Dr. Laskar simultaneously served as
Faculty Advisor to no less than 50 graduate doctoral
students. At the time, this was more than any other
Georgia Tech professor.
4.
In recognition of Dr. Laskar’s scholarship, as
reward for his leading-edge research, and in tribute to
his extensive mentoring of students and colleagues
alike, Dr. Laskar has been the recipient of numerous
awards and honors. These recognitions included:

App. 4
(a)

The Army Research Office
Investigator Award (1995);

Young

(b)

The NASA Invention Award: “Integrated
Noise Generator” (1996);

(c)

The National Science
CAREER Award (1996);

(d)

National Science Foundation Packaging
Research Center Faculty Of the Year
Award (1998);

(e)

The National Science Foundation
Packaging Research Center Educator Of
the Year Award (1999);

(f)

The Rappaport Award from the Institute
of Electrical and Electronics Engineers
(1999);

(g)

The Georgia Tech Faculty Graduate
Student Mentor of the Year (2001);

(h)

Appointment as Senior Member of the
Institute of Electrical and Electronics
Engineers (2002);

(i)

The Clemson University College of
Engineering Young Alumni Award (2003);

(j)

The Outstanding Young Engineer Award
of the Institute of Electrical and
Electronics Microwave Theory and
Techniques Society (2003);

Foundation

App. 5
(k)

The NAE/Humboldt Foundation Featured
Speaker for Frontiers of Engineering
(2003);

(l)

Fellow of the Institute of Electrical and
Electronic Engineers (2005);

(m)

Distinguished Lecturer in 2006-07 at The
Institute of Electrical and Electronics
Engineers EDS;

(n)

Recipient of Georgia Tech’s “Outstanding
Faculty Research Author” Award (2007);

(o)

Recipient of Georgia Tech ECE’s
Distinguished Mentor Award (2008);

(p)

Vice Chair of the Institute of Electrical
and Electronics Engineers MTT-S
Executive Committee (2008-09);
and

(q)

Chair of the Institute of Electrical and
Electronic Engineers MTT-S Executive
Committee (2010).
5.

In 2003, Dr. Laskar helped to found Georgia Tech’s
Georgia Electronic Design Center (“GEDC”) and
became its first Director. GEDC was conceived as a
cross-disciplinary electronics and plutonics research
center focused on the development of high-speed
electronic components and signal processing in order to
achieve breakthrough performance. GEDC worked in
partnership with the Georgia Tech Research
Corporation (“GTRC”) and was managed by the

App. 6
University’s Provost Office. As GEDC’s Director, Dr.
Laskar established numerous partnerships with
outstanding technology companies from around the
world. These companies were encouraged by Dr.
Laskar to provide, and did provide, monies to GEDC
and various affiliated Georgia Tech organizations. The
companies sought to work closely on advanced research
in collaboration with faculty members at Georgia Tech.
They were keenly interested in pursuing this
opportunity because, largely as a result of Dr. Laskar’s
path-finding research, Georgia Tech had become the
place to be in mixed signal technology research. More
than $70 Million in managed grants and research
contracts were secured by Dr. Laskar in his capacity
either as Principal Investigator or Co- Investigator on
specific research projects. As measured by grants and
research contracts received, Dr. Laskar was one of the
most productive faculty members in the entire
Institute. Dr. Laskar attracted grants and research
contracts for:
(a)

National and International companies
including:
i.

Hewlett-Packard;

ii.

Texas Instruments;

iii.

General Electric;

iv.

National
Corporation;

v.

Samsung;

vi.

BellSouth

Semiconductor

App. 7

(b)

vii.

International Business Machines
(IBM);

viii.

Northrop Grumman; and

ix.

Microsoft Corporation.

Governmental organizations such as:
i.

NASA;

ii.

The U.S. Army;

iii.

The U.S. Navy; and

iv.

The National Science Foundation.
6.

In furtherance of Georgia Tech’s mission to provide
a learning laboratory for its students, the GEDC,
during Dr. Laskar’s tenure, saw ever-increasing
numbers of undergraduate and graduate level students
working on the Center’s research programs. Attracted
by the exciting work of Dr. Laskar and his colleagues,
these students were assigned to Georgia Tech faculty
members actually conducting the research. Benefited
by Dr. Laskar’s outreach and charismatic leadership,
a large portion of that research was supported by some
of the world’s most important and best-known
technology companies, giving GEDC additional cache
and leverage in attracting the very best doctoral
candidates to enroll at Georgia Tech. Once enrolled,
these students were able to utilize the equipment,
facilities and chip technology made available to them at
GEDC. They were further able to use their research as
part of their doctoral theses and to have the

App. 8
opportunity to make important contributions to an
emerging new technology. Today, GEDC has more than
15 active faculty and over 100 graduate and
undergraduate students engaged in its activities.
Georgia Tech advertises GEDC as being “one of the
world’s largest university-based semiconductor
research centers.” (www.gedc.gatech.edu)
7.
The investigation of Dr. Laskar undertaken by
Defendants, the suspension of the Professor without
pay, and the termination of Dr. Laskar’s tenured
faculty position, followed by his arrest and criminal
prosecution, severely damaged Dr. Laskar’s
professional reputation and standing. The reputational
damages he sustained were amplified by the media
coverage which Defendants organized and assisted. As
a direct and proximate consequence of the Defendants’
actions and omissions, Dr. Laskar’ s reputation within
the academy was destroyed. He was not able for a
period of six (6) years following his arrest to secure fulltime employment at any other accredited academic
institution. The resulting damages to the Professor’s
personal health and well-being were profound. Dr.
Laskar was professionally diagnosed as suffering from
post-traumatic stress syndrome (“PTSD”). His wife and
three children suffered severe and long-lasting
emotional distress and anxiety. The entire Laskar
family was devastated by a disgrace that was
needlessly, publicly, and maliciously inflicted upon
them.

App. 9
8.
Specific actions undertaken by the Defendants
demonstrate the malice with which their investigation
was pursued. Defendants deliberately timed the release
of their investigative findings without granting Dr.
Laskar a single meeting to know and understand the
charges leveled against him, and then be able to
challenge and correct the purported findings which had
been made. Defendants deliberately orchestrated their
Georgia Bureau of Investigation raid of Dr. Laskar’s
office, vehicles, and residence to occur on May 17, 2010,
the very day that a heralded new technology company
founded by Dr. Laskar, Sayana Wireless LLC
(“Sayana”), was scheduled to be sold. Both Dr. Laskar
and Georgia Tech’s affiliated contracting entity, the
Georgia Tech Research Corporation (“GTRC”), held
substantial equity interests in Sayana. The scheduled
sale of the company was expected to provide Dr. Laskar
millions of dollars in transaction proceeds, and was
expected to provide GTRC millions of dollars as well.
When Dr. Laskar was suspended by the University, the
suspension was implemented without pay, in
contravention of Georgia Tech’s Faculty Handbook
regulations. When the ensuing revocation process got
underway, Georgia Tech again did not follow its own
procedures, and Dr. Laskar was never permitted to
appear before the interim faculty panel to plead his
case. Defendants even reneged on the conditions which
Dr. Laskar’ s criminal attorney had negotiated for the
surrender of the Professor to law enforcement
authorities, privately and away from public view, by
deceptively causing Dr. Laskar to move into the public
square so that television reporters whom Defendants

App. 10
had arranged and coordinated to be on hand could film
the proverbial “perp walk” as the Professor was taken
into custody.
9.
In the weeks and months which followed, further
substantial damages were caused to Dr. Laskar. Dr.
Laskar’s sparkling career, its glowing prospects for
further advancement, the Professor’s personal
reputation, and his professional role as mentor and
advisor to an extraordinary number of talented Georgia
Tech advanced degree and doctoral students, were all
effectively demolished. Dr. Laskar was suspended
without pay in violation of Georgia Tech’s Faculty
Handbook provisions, which called for continuing
payment to the suspended party until the merits of the
investigation could be heard and decided. Dr. Laskar
was subsequently deprived of his tenured position on
the Georgia Tech faculty. The loss of that paid position,
and the loss of anticipated transaction proceeds had the
scheduled sale of Sayana Wireless LLC been permitted
to occur, jeopardized Dr. Laskar’s ability to support and
care for his family. Without the financial support he
was rightfully due, Dr. Laskar was forced to make
other arrangements to address the substantial medical
expenses incurred in treating him and his family
members for the emotional and physical illnesses
caused to and suffered by them. Crushing legal
expenses also had to be managed and paid in order for
Dr. Laskar to defend himself from the unsubstantiated
University and criminal charges brought against him.

App. 11
10.
More than six years later, on October 5, 2016, after
a bitter and protracted University and legal process,
The Honorable Robert McBurney, a sitting Judge of the
Superior Court of Fulton County, Georgia, entered an
order dismissing all criminal charges brought and filed
against Dr. Laskar.
11.
Termination of the criminal proceedings against Dr.
Laskar gives rise under Georgia law to a claim for
malicious prosecution. O.C.G.A. § 51-7-41. Dr. Laskar
shows that the investigation undertaken by
Defendants, and the resulting criminal prosecution
filed and pursued against him, was the result of actions
orchestrated and coordinated by Defendants with law
enforcement and prosecutorial actors. Under the guise
of a University inquiry originally requested by
Defendants Garton and Allen, then expanded at their
request, the University Internal Audit Department led
an investigation of Dr. Laskar and his company by
Defendants that was maliciously pursued and
unsupported by any probable cause. Defendants’ efforts
were, in part, a deliberate effort to assign blame to Dr.
Laskar for accounting practices, research procedures
and start-up company protocols that were
commonplace and longstanding within the Georgia
Tech community. More particularly, Defendants
Garton and Allen sought to have the investigative
process secure the removal and/or crediting of cost
overruns reflected on the books and accounts of GTRC
and to assign blame for the overruns in question to

App. 12
asserted criminal wrongdoing committed by Dr.
Laskar.
12.
The actions and omissions of the Defendants were
not just false, misleading and materially incomplete,
they were immoral, unjust, and extravagantly unfair to
a man who had brought renown and distinction to
Georgia Tech and had enriched the research grant and
foundation coffers of the Institute by millions and
millions of dollars. Maliciously pursued and
unsupported by probable cause, the Defendants’
investigation, which instigated and led to the criminal
prosecution of Dr. Laskar, was wrongful, illegal and
scandalous. It inflicted one more stain upon the
Georgia Tech community at large. Plaintiff brings this
action to correct the injustice perpetrated against him,
to clear his name in every possible respect, and to win
the monetary relief that is due him.
JURISDICTION AND VENUE
13.
This Court has subject-matter jurisdiction of this
action under and by virtue of 28 U.S.C. §§ 1331 and
1343. Plaintiff raises a federal question and the
violation of his federally guaranteed Constitutional
rights. This Court has pendent jurisdiction of Plaintiff’s
state law claims under and by virtue of 28 U.S.C.
§1367(a).

App. 13
14.
This Court is the proper venue in which to
adjudicate this action under and by virtue of 28 U.S.C.
§§ 1391(b)(1) and (2). The material actions and
omissions of Defendants took place in this District and
Division.
PARTIES
15.
Dr. Laskar was previously a resident of Atlanta and
the State of Georgia. Dr. Laskar now resides in Santa
Clara County, California. The Defendants, all of whom
were acting under color of a state institution and state
law as employees of Georgia Tech and its affiliated
entities, provided false, misleading and materially
incomplete information regarding Dr. Laskar to law
enforcement and prosecutors, which caused and led to
the criminal prosecution that was ultimately
terminated in Dr. Laskar’s favor. The Defendants’
actions led to a Fourth Amendment violation of Dr.
Laskar’s constitutional rights and subjects the
Defendants to Section 1983 liability for malicious
prosecution. Plaintiff’s claims are asserted against
Defendants in their individual and personal capacities.
16.
Defendant Phillip W. Hurd is a resident of the State
of Georgia and resides at 1881 Lancaster Drive S.E.,
Conyers, Rockdale County, Georgia 30013-6440.
Defendant Hurd is subject to the jurisdiction of this
Court. At all times material to the events described in
Plaintiffs Complaint, Defendant Hurd worked as the

App. 14
Chief Audit Executive and Director of Internal
Auditing for the Georgia Institute of Technology.
Defendant Hurd led the Audit Department
investigation of Dr. Laskar and worked directly with
law enforcement and prosecutorial actors. Defendant
Hurd even accompanied Georgia Bureau of
Investigation (“GBI”) Special Agent staff to request
orders for search and seizure from Judges serving in
Cobb and Fulton Counties.
17.
Defendant Patrick A. Jenkins is a resident of the
State of Georgia and resides at 4704 Brazil Wood
Court, Kennesaw, Cobb County, Georgia 30144-1487.
Defendant Jenkins is subject to the jurisdiction of this
Court. At all times material to the events described in
Plaintiff’s Complaint, Defendant Jenkins worked as the
Senior Information Systems Auditor in the Department
of Auditing for the Georgia Institute of Technology.
Defendant Jenkins worked alongside Defendant Hurd
in performing the investigation of Dr. Laskar and his
company. Defendant Jenkins interacted with the other
Defendants and University personnel, and he
accompanied GBI staff to execute warrants and
interview witnesses, in many instances propounding
questions to witnesses himself.
18.
Defendant Jilda Garton is a citizen and resident of
the State of Georgia and resides at 420 Woodvine
Court, Roswell, Fulton County, Georgia 30076-3630.
Defendant Garton is subject to the jurisdiction of this
Court. At all times material to the events described in

App. 15
Plaintiffs Complaint, Defendant Garton worked as the
Associate Vice Provost for Research and as the General
Manager of the Georgia Tech Research Corporation
(“GTRC”) and the Georgia Tech Applied Research
Corporation (“GTARC”). Defendant Garton was
responsible for managing the operational and financial
standing of GTRC, including its financial responsibility
for research activities which it promoted and
encouraged on behalf of Georgia Tech faculty, partners
and interests. Defendant Garton took affirmative steps
to ensure that GTRC was not perceived to be or
actually deemed responsible for specific cost overruns
that appeared on its books of account, including costs
expended for research undertaken at GEDC on behalf
of outside companies such as Samsung. Defendant
Garton worked actively to push such costs off of
GTRC’s books and to attribute selected cost overruns to
GEDC, Professors and/or Principal Investigators like
Dr. Laskar. Utilizing the investigation that was set
into motion regarding Dr. Laskar, Sayana and GEDC,
which she requested and then requested be expanded.
Defendant Garton worked in concert with Defendant
Allen and other Defendants on these matters.
19.
Defendant Mark G. Allen was previously a resident
of the State of Georgia. He is today a resident of the
State of Pennsylvania and resides at 2037 Spruce
Street, Philadelphia, Pennsylvania 19103-5623.
Defendant committed tortious acts and omissions while
in Georgia which caused serious and substantial
damage to Plaintiff in Georgia, including acts
constituting and supporting the malicious prosecution

App. 16
of Plaintiff. Under and by virtue of O.C.G.A. § 9-10-91,
Defendant Allen is subject to the jurisdiction of this
Court. At all times material to the events described in
Plaintiff’s Complaint, Defendant Allen served as a
Professor at Georgia Tech in the School of Electrical
and Computer Engineering (“ECE”) and as Senior Vice
Provost of the University. Later, Defendant Allen
became Acting Dircctor of Georgia Tech’s Georgia
Electronic Design Center (“GEDC”). Defendant Allen
worked in concert with Defendant Garton to initiate
and expand the investigation of cost overruns that
ultimately led to Dr. Laskar’s suspension, termination,
arrest and prosecution.
OPERATIVE FACTS
Dr. Laskar’s Superlative Academic And
Professional Credentials
20.
Dr. Laskar is widely known for his work in
designing and developing mixed signal integration
circuits and chips for use in wireless and digital
communications systems. At Georgia Tech, Dr. Laskar
spearheaded the development of high performance
mixed signal solutions operating in low-power usage
scenarios (i.e., in situations involving 100 to 1,000
times lower power outputs than previously
accomplished). Dr. Laskar’s work produced
substantially lower cost structures and made possible
the development of technical solutions costing less than
$10.00. Prior thereto, design and build expenses had
exceeded $10,000.00.

App. 17
21.
At all times material to the events described in this
Complaint, Dr. Laskar’s research included:
(a)

the original design and development of
the power amplifier (a key component of
the transmitter) used in Intel
Corporation’s Centrion Platform;

(b)

the development of high speed
equalization chips (i.e., techniques to
preserve information in high speed data
links) used by Intersil Americas LLC for
improved data connectivity in servers
being deployed by Google, Microsoft
Corporation and Cisco Systems; and

(c)

the development of technology building
blocks for the miniaturization of military
grade radar systems affixed to chips.
22.

Dr. Laskar began his technical career by earning a
Bachelor of Science degree in Computer Engineering
from Clemson University in 1985.
23.
In 1989, Dr. Laskar earned a Master of Science
degree in Electrical Engineering from the University of
Illinois at Urbana-Champaign. Two years later, in
1991, he earned his Doctorate degree in Electrical
Engineering from that same institution.

App. 18
24.
Dr. Laskar subsequently began work as a Research
Engineer at the International Business Machines
Corporation (“IBM”). Working out of IBM’s Thomas J.
Watson Research Center in New York, Dr. Laskar
focused on Cryogenic CMOS. Cyrogenics is a branch of
physics dealing with the production and effects of very
low temperatures. CMOS, or complementary metaloxide-semiconductors, is a technology used in
constructing integrated circuits. The technology is used
in microprocessors, microcontrollers, static RAM and
other digital logic circuits. Cyrogenic CMOS are
currently being evaluated as point-contact HPGe
detectors (i.e., hyperpure germanium detectors) in
connection with deep space dark matter search and
neutrino experimentation.
25.
In 1992 Dr. Laskar became an Assistant Professor
at the University of Hawaii at Manoa. There, he helped
lay the foundation for establishment of the University’s
Microwave Applications Laboratory.
26.
In January 1995 Dr. Laskar was appointed an
Assistant Professor at the Georgia Institute of
Technology (“Georgia Tech”). Two years later, he was
promoted to the position of Associate Professor with
tenure.

App. 19
27.
In 2002, Dr. Laskar became a tenured full Professor
at Georgia Tech. At the time of his appointment, Dr.
Laskar was simultaneously named the Joseph M.
Pettit Professor of Electronics.
28.
In 2003 Dr. Laskar helped to found Georgia Tech’s
Georgia Electronic Design Center (“GEDC”). He
became the GEDC’s first Director. As previously noted,
GEDC is a cross-disciplinary electronics and photonics
research center focused on the development of highspeed electronic components and signal processing. Dr.
Laskar worked to establish partnerships between
GEDC and prominent technology companies from
around the world. These companies provided monies to
GEDC or affiliated Georgia Tech organizations in order
to have the opportunity to work closely with Georgia
Tech faculty members on advanced research. More
than $70 Million in managed grants or research
contracts were secured by Dr. Laskar in his capacities
as Principal Investigator or Co-Principal Investigator.
29.
Dr. Laskar ultimately became one of the most
productive faculty members at Georgia Tech as
measured by grants and research contracts received.
National and international companies including
Hewlett-Packard, Texas Instruments, General Electric,
National Semiconductor Corporation, Samsung,
Bellsouth, IBM, Northrop Grumman, and Microsoft
Corporation funded grants and research contracts.
Governmental organizations such as NASA, the U.S.

App. 20
Army, the U.S. Navy and The National Science
Foundation did so as well. GEDC provided a learning
laboratory for University students engaged in such
research and who sought to advance their graduate and
doctoral ambitions. Today, the Center has more than
15 active faculty and over 100 graduate and
undergraduate students. Georgia Tech currently
advertises the Center as “one of the world’s largest
university-based semiconductor research centers.”
(www.gedc.gatech.edu)
30.
In 2007 Dr. Laskar was awarded the Georgia TechSchlumberger Chair in Microelectronics at the School
of Electrical and Computer Engineering. Schlumberger
NV is a world-wide business and provides integrated
project management solutions to the international oil
and gas exploration and production industries.
31.
Over the course of his academic career, Dr. Laskar
has written and presented numerous scholarly papers
for publication and presentation in the United States
and other countries. His work has focused on mixed
signal design. Dr. Laskar is the author of five (5) books
and more than 600 peer-reviewed journal and
conference articles.
32.
With more than 50 patents issued to him in the field
of mixed signal design, Dr. Laskar is an industry leader
in 60GHz signal design. His prolific scholarship,
leading-edge research, and extensive mentoring of

App. 21
students and colleagues has caused Dr. Laskar to
become the recipient of numerous awards and honors.
A listing of those recognitions can be found in
Paragraph 4 above.
33.
Significantly, these recognitions were not in all
instances devoted to the accomplishment or
advancement of Dr. Laskar’s own career aspirations. At
least two awards came to the Professor for being an
“outstanding” mentor to Georgia Tech graduate
students and a “distinguished” mentor in the School of
Electrical and Computer Engineering. At Georgia Tech
Dr. Laskar simultaneously served as Faculty Advisor
to no less than 50 graduate doctoral candidates, which
by any measure is impressive, and at that time was
more than any other Georgia Tech professor.
The Formation Of Sayana Wireless, LLC By Dr.
Laskar
34.
In 2006, Dr. Laskar founded Sayana Wireless, LLC
(“Sayana”), a Georgia limited liability company,
together with Dr. Stephane Pinel, a colleague and
fellow Georgia Tech employee. Dr. Laskar owned a
majority membership interest in the company. Georgia
Tech Research Corporation (“GTRC”) was initially
granted a 5% member interest in Sayana and was
provided copies of all organizational and stock
subscription documents. These documents detailed the
ownership interests held by all members in the
company, including the majority interest held by Dr.

App. 22
Laskar. GTRC’s ownership share in Sayana was later
increased to a 10% member interest.
35.
Georgia Tech actively encouraged Dr. Laskar to
found Sayana, just as it encouraged other Institute
professors to found companies that could advance the
dissemination of their research technology to the public
at large. Georgia Tech was engaged in a conscious
effort to emulate and even surpass the success of peer
institutions like Stanford and MIT in the incubation
and spin-off of technology companies. With Dr.
Laskar’s leading edge research work in mixed signal
technology, Georgia Tech encouraged Dr. Laskar to
have Sayana join GEDC as a member company.
Georgia Tech also encouraged Sayana to apply to
VentureLab as an internal start-up company within
GEDC. Georgia Tech later sponsored a series of
televised symposia where, at one such event, the
University’s senior executives and officers were in
attendance, and Dr. Laskar was introduced to them
and other audience members as a Principal of Sayana.
36.
Building upon Dr. Laskar’s proprietary technology,
Sayana was also engaged in the development of highspeed wireless signaling technology. Because of Dr.
Laskar’ s position as a University employee, ownership
of this intellectual property was vested in Georgia Tech
and held in the name of GTRC.

App. 23
37.
GTRC is a state chartered 501(c)(3) not-for-profit
corporation serving Georgia Tech. GTRC serves as the
assignee of all intellectual property arising from
research activities at Georgia Tech. It is further
engaged in licensing that same technology back to
those faculty members responsible for its creation so
that they can commercialize it. GTRC’s Board of
Directors is comprised of Georgia Tech faculty, the
President of Georgia Tech, others appointed by the
President, a representative from the Georgia Tech
National Alumni Association, a representative from the
Georgia Tech Foundation, Inc., and other members
from industry at large. GTRC licenses all intellectual
property which is created by Georgia Tech employees,
including faculty members. The intellectual property
licensed by GTRC includes all pertinent patents,
copyrights and trade secrets. GTRC supports and
promotes research conducted at Georgia Tech through
its stewardship of funds which are collected for
sponsored research, and through its own financial
support of certain research activities. Through
technology transfer, GTRC enables Georgia Tech to
maintain partnerships with public and private sectors
of the economy in order to assure that research benefits
are widely disseminated. All funds collected by GTRC
are used to support those Georgia Tech programs
requested by the University and approved by the GTRC
Board of Directors. GTRC pays for sponsored research
costs, license and royalty fees, and all corporate
operating expenses associated with the work. GTRC
supports Georgia Tech’s grants and funded support
programs. GTRC also assists Georgia Tech in obtaining

App. 24
quality research space, entering into long-term leases
for specialized research equipment, and conducting
other research support programs as requested by
Georgia Tech.
38.
In February 2009 Sayana delivered $90,000 to
GEDC to support its membership in GEDC and the
organization’s ongoing operations. Earlier, Sayana had
paid the salaries of GEDC co-op research assistants
during the 2007-2009 academic years and in the
approximate total amount of $165,000. Sayana also
paid research expenses of GEDC during academic years
2008-2009 in the approximate amount of $70,000.
Sayana paid to GTRC patent and licensing fees in the
approximate amount of $220,000. In consideration of
all these amounts, Sayana made use of Georgia Tech
facilities, research equipment and staff. This use was
authorized, and Sayana’s usage was no different from
that of any other GEDC hosted and affiliated company.
Sayana’s usage of the Center’s facilities, equipment
and staff was actively encouraged by Georgia Tech.
39.
The funds paid by Sayana to GEDC in support of
membership and GEDC’s ongoing operations enabled
it to utilize the Center’s facilities, equipment and
research staff.
40.
In July 2006 Sayana entered into a License
Agreement with the GTRC, whereby GTRC licensed to
Sayana the signaling technology that Dr. Laskar had

App. 25
developed. In consideration of this license, Sayana
ultimately granted to GTRC a 10% interest in the
company. Sayana then became committed to
commercializing its licensed technology and earning
compensation for itself and all its members, including
GTRC.
41.
As a start-up company working as part of GEDC,
Sayana was successful in advancing its licensed
technology and positioning itself for sale. The assets of
the company were scheduled for private auction on
May 17, 2010 pursuant to a transaction managed and
conducted by Pagemill Partners of Silicon Valley,
California. It was anticipated that Sayana would
receive sales proceeds totaling approximately $30
Million. It was understood that GTRC would receive
10% of that expected sum, or approximately $3 Million.
The Suspension Of Dr. Laskar from Georgia
Tech
42.
These expectations notwithstanding, by letter dated
May 17, 2010, Dr. G.P. Peterson, President of Georgia
Tech, suddenly announced to Dr. Laskar: “In
reviewing the recent cost overruns within the Georgia
Electronic Design Center (GEDC), the Institute’s
Department of Internal Audit discovered what they
believe to be substantial evidence of malfeasance on
your part including the misappropriation of Institute
resources for the benefit of a company, Sayana Wireless
LLC, of which you are part owner.”

App. 26
43.
President Peterson informed Dr. Laskar that,
“effective immediately, I am suspending you without
pay until the Institute concludes its investigation of
this matter.” (emphasis supplied) At the time of Mr.
Peterson’s letter to Dr. Laskar, Dr. Laskar had been an
employee of Georgia Tech for more than 15 years.
President Peterson’s suspension of Dr. Laskar without
pay was in direct violation of the Georgia Tech Faculty
Handbook provision which governed this matter.

44.
Section 5.10.5 of the Georgia Tech Faculty
Handbook (the “Faculty Handbook”) in effect at the
time of President Peterson’s notice to Dr. Laskar
provides that “The President in consultation with the
Executive Board shall determine whether a faculty
member confronted with a dismissal charge shall be
temporarily relieved of duties. Unless legal
considerations forbid, any such relief from duties will
be with pay.” (emphasis supplied)
45.
Section 5.10.4 of the Faculty Handbook provides
that it is only upon the conclusion of a formal hearing
and dismissal by the President that ‘’the Faculty
member shall be suspended from employment without
pay from the date of the final decision of the President.”
(emphasis supplied)

App. 27
46.
The Georgia Institute of Technology is a research
university of the University System of Georgia, but it
is not a distinct legal entity from the Board of Regents
of the University System of Georgia. The Board of
Regents has vested in itself the government, control
and management of the University System of Georgia
and each of its institutions. There is no provision in the
Board of Regents Policy Manual in effect at the time of
President Peterson’s notice to Dr. Laskar (the “Regents’
Manual”) authorizing the suspension of faculty without
pay. As does the Faculty Handbook, the Regents’
Manual authorizes suspension without pay of a faculty
member only upon termination: “Upon dismissal by the
president, the faculty member shall be suspended from
employment without pay from the date of the final
decision of the president.” President Peterson’s
suspension of Dr. Laskar without pay therefore
violated the Regents’ Manual.
47.
Section 5.10.4 of the Faculty Handbook provides
that during the pendency of dismissal procedures,
“[e]xcept for such simple announcements as may be
required covering the time of the hearing and similar
matters, public statements and publicity about the case
by either the Faculty member or Administrative Offices
should be avoided until the proceedings have been
completed. “ (emphasis supplied) Section 8.3.9.2 of the
Regents’ Manual similarly provides that “[e]xcept for
such simple announcements as may be required
covering the time of the hearing and similar matters,
public statements and publicity about the case by

App. 28
either the faculty member or administrative officers
should be avoided until the proceedings have been
completed.”
48.
These provisions notwithstanding, representatives
of Georgia Tech, including the Defendants, discussed
and coordinated the dissemination of information to
members of the news media regarding the suspension
of Dr. Laskar. These actions included the following:
(1)
On the day that President Peterson
suspended Dr. Laskar without pay – May 17, 2010 Georgia Tech issued a press release regarding the
GBI’s execution of 23 differing search warrants issued
against and for Dr. Laskar’s personal papers and
property, and that of other named individuals and
property;
(2)
Dr. Gary May of Georgia Tech sent emails
respecting these investigative events to faculty, staff
and students of the School of Electrical and Computer
Engineering on May 17, 2010 and June 22, 2010;
(3)
Georgia Tech posted on the GEDC website a
link to a WSB-TV report on the suspension of Dr.
Laskar; and
(4)
Georgia Tech improperly discussed with
reporter WSB-TV Richard Belcher purported facts
relating to the suspension of Dr. Laskar and the
initiation of termination proceedings against him.
All of these actions were undertaken in violation of
Section 5.10.4 of the Faculty Handbook.

App. 29
49.
There is no provision in the Faculty Handbook or
the Regents’ Manual authorizing the termination of a
tenured faculty member’s access to email and voicemail
communications systems prior to the termination of the
employment of that tenured faculty member. Despite
this lack of authorization, these aforementioned steps
were taken against Dr. Laskar.
50.
There is no provision in the Faculty Handbook or
the Regents’ Manual authorizing the omission or
nondisclosure of the affiliation of a tenured faculty
member in connection with published scholarly papers
or conferences after dismissal proceedings have been
initiated against that tenured faculty member but
before a ruling has been made in such a proceeding.
Despite this lack of authorization, these
aforementioned steps were taken against Dr. Laskar.
51.
There is no provision in the Faculty Handbook or
the Regents’ Manual authorizing the removal of a
tenured faculty member as the named and published
advisor of a Ph.D. candidate after dismissal
proceedings have been initiated against the tenured
faculty member but before a ruling has been made in
such a proceeding. Despite this lack of authorization,
these aforementioned steps were taken against Dr.
Laskar.

App. 30
52.
Each year during the course of his employment at
Georgia Tech, Dr. Laskar entered into a Fiscal Year
Employment Contract with the Board of Regents. Each
of these Fiscal Year Employment Contracts consisted
of a form agreement setting forth the terms of Dr.
Laskar’s employment.
53.
Among the terms of the 2009 Employment Contract
executed by Dr. Laskar appeared the following
language: “This agreement is made expressly subject to
applicable state and federal laws and to the statutes
and regulations of this institution and to the Bylaws
and Policies of the Board of Regents, which are
available for your inspection upon request.” The
applicable policies and procedures of the Board of
Regents were set forth in the Board of Regents’ Policy
Manual, available at http://www.usg.edu/policy
manual/. The applicable policies and procedures of
Georgia Tech were set forth in its Faculty Handbook,
available at http://www.academic.gatech.edu/handbook/
Georgia_Institute_of_Technology_FacFaculty_
Handbook_Sep2008.pdf. Despite the fact that Dr.
Laskar’s Employment Contract was made expressly
subject to the policies and procedures of the Board of
Regents, Defendants acted in flagrant violation of
them.

App. 31
The Substantive Claims Involving Dr. Laskar
Assembled And Recorded By Defendants
54.
In December 2009, Defendant Jilda D. Garton, the
Associate Vice Provost for Research at the Georgia
Institute of Technology, and the General Manager of
the Georgia Tech Research Corporation (GTRC),
together with Defendant Mark G. Allen, then Senior
Vice Provost for Research and Innovation at Georgia
Tech, discussed with Defendant Hurd, the Chief Audit
Executive within Georgia Tech’s Department of
Internal Auditing, an investigation of cost overruns
which they reported totaled approximately $650,000
and were related to a contract called National
Semiconductor. Defendant Hurd initially reported that
he “’thought this was just a major, colossal accounting
screwup.”
55.
Soon after, on January 5, 2010, Defendant Garton
emailed Defendant Allen to report, “We need to go
ahead and move GEDC’s National Semiconductor costs
totaling $644,338 off GTRC’s books in the third quarter
of FY 2010.”
A. Defendant Garton reported to Defendant Allen
that “the options to consider are to transfer the
costs back to the PIs’ [Principal Investigators’]
schools, write them off, transfer them to GEDC,
or develop a repayment plan.” Ultimately, she
wrote, the costs should be brought “back to
GEDC where Chris Evans [GEDC’s Director of
Operations] has said that the charges are not

App. 32
GEDC charges but that each PI is responsible.”
Defendant Garton was also at this time focused
on another, much larger cost overrun involving
Samsung, upwards of $1.4 Million, which she
wanted off of GTRC’s books.
B. In earlier conversations had with Internal Audit
employee Larry Webster, Defendant Garton had
expressed concern that research work being
done by employees of Samsung, one of the
companies Dr. Laskar had recruited to fund
advanced research at GEDC, was becoming
mixed up with work that GEDC was doing under
a separate contract with Samsung.
C. Dr. Garton expressed her further concern to Mr.
Webster that “GEDC Director [Joy Laskar] has,
or is employed by a nonGT company” and she
was “unsure as to his level of effort between his
GT job and his other job.”
D. For his part, Defendant Allen responded to
Defendant Garton’s January 5 email on January
6, 2010 as follows: “I agree we need to consider
dealing with this as part of the larger GEDC
‘clean-up’, and that the solutions that we
implement should be broad-based.”
E. Accordingly, on January 15, 2010, Defendant
Allen emailed Defendant Hurd to say, “It has
come to my attention that there may be some
irregularities regarding certain research
accounts from National Semiconductor (sponsor)
that were handled through the Georgia
Electronic Design Center (GEDC) several years

App. 33
ago. In particular, there is concern that work
was double-spent due to potential issues with
invoicing through GTRC and GTF [the Georgia
Tech Foundation]. The amount involved is
substantial (on the order of $600K). Multiple PIs
[Principal Investigators] from the School of ECE
[Electrical and Computer Engineering] expended
the funds, and GEDC may have also expended
the funds (thus the doublespending). In order to
understand what happened, I request that
Internal Audit conduct a study of this issue,
determine whether or not the funds were doublespent, . . . and identify appropriate changes and
controls that will prevent these issues from
occurring in the future. Jilda has assembled a
large amount of paperwork on this issue and I
would ask that you or someone on your staff
please get in touch wither her, understand the
situation (from GTRC’s point of view), collect
other points of view and documentation as
appropriate, and prepare a plan to determine
how we can resolve the issues above, . . . .”
F. In the weeks that followed, Defendant Garton
communicated with GTRC’s Director of
Accounting, Barbara Alexander, who expressed
alarm that “GEDC is a hydra with many heads
that need to be reckoned with.” (Email from B.
Alexander to Jilda Garton dated January 25,
2010).
G. During this same month of January 2010,
Defendant Allen began discussing with Dr.
Laskar the implementation of a plan to reduce

App. 34
the larger overrun involving Samsung. Dr.
Laskar sought to assist in addressing the issue,
and he and Defendant Allen began
communicating regularly about an agreed plan
of action, which involved reducing GEDC
expenses, identifying and securing new funding
sources to apply against the overrun, and
limiting salary and other expenses so that
doctoral students working at GEDC would not
be terminated in order to reduce overhead. Over
a period of weeks, these remedial steps were in
process, and progress was being demonstrated.
H. Even so, Defendant Garton and GTRC’s Director
of Accounting, Barbara Alexander, sought a
formal expansion of the existing investigation
involving NSC in order to help GTRC contend
with outside auditors who were questioning the
organization having booked cost overruns which
remained unpaid. Defendant Garton was
informed on January 24, 2010 that Ms.
Alexander had discussed the status of the audit
with Mr. Webster as follows: “I had previously
given him info on Samsung and a couple of other
things to show a pattern of diverted funds. He
said he showed the info to his superiors and they
said to only focus on NSC. This seems a little
short sighted considering Samsung could be an
A133 finding if the auditors are not pleased with
the progress [of repayment]. The auditors also
look at write offs. If they connect the dots on
Perelli, NSC, and Samsung we could have a real
problem.”

App. 35
I. One month later, and as if it was something
inappropriate, Ms. Garton was advised that Ms.
Alexander had been informed that “Stephan
Penelle [sic] . . . is Laskar’ s right hand post doc
and is knee deep in the Sayana company.”
(Email from B. Alexander to J. Garton dated
February 22, 2010).
J. These matters were discussed by Defendant
Garton with Defendant Hurd, and on March 23,
2010 she emailed Ms. Alexander to report, “I
can’t really go into the details but suffice it to
say, it’s getting the appropriate attention.”
K. Indeed, after attending several meetings with
Georgia Tech employees and Defendant Garton,
Defendant Hurd determined that he would
expand his investigation to conduct an audit of
all GEDC finances. Hurd later discussed the
progress of his work with Defendant Allen, with
Dr. Gary Schuster, who was then serving as
Provost for Georgia Tech, with Dr. G.P. “Bud”
Peterson, the President of Georgia Tech, and
with Patrick McKenna, Esq., the Chief of Legal
Affairs for the Institute.
56.
In short order, Defendant Hurd and his team
subsequently produced an Official Report of Suspected
Malfeasance (the “2010 Report”) dated April 14, 2010.
He delivered that report to John M. Fuchko, III, then
Associate Vice Chancellor for Internal Audit at the
Board of Regents of the University System of Georgia.

App. 36
57.
In the 2010 Report, Defendant Hurd declared that
Dr. Laskar had, among other things, made
misrepresentations to the IRS, had misused
equipment, offices and laboratory facilities of Georgia
Tech in order to further the interests of Sayana, had
violated several Georgia Tech policies and procedures,
and had committed violations of statutory law, which
Defendant Hurd identified as O.C.G.A. § 40-10-23,
O.C.G.A. § 40-10-25, and United States Code Title 18,
Part I, Chapter 46, § 1001. The Official Code of Georgia
Annotated does not contain either of the two Georgia
provisions which were cited by Defendant Hurd.
Defendant Hurd took it upon himself to contact the
Internal Revenue Service to raise questions about
certain actions of Sayana and Dr. Laskar, which
prompted the IRS to contact Dr. Laskar. Notably, and
after an extended examination was made, the IRS
concluded that there were no penalties due.
58.
Defendant Hurd concluded his 2010 Report by
requesting that, if a GBI agent was assigned to
investigate the case, that agent should be Mr. Wesley
Horne.
59.
Vice Chancellor Fuchko notified State of Georgia
Senior Assistant Attorney General David S.
McLaughlin of Defendant Hurd’s reported findings and
charges against Dr. Laskar.

App. 37
60.
The following week, Mr. McLaughlin met for several
hours with representatives of Georgia Tech and the
Office of Internal Audit for the Board of Regents to
discuss the issues raised in Defendant Hurd’s 2010
Report. While Defendant Hurd considered his
presentation to be a “preliminary audit report,” he
never signed and issued a final one. He did proceed to
present a PowerPoint summary of his findings and
conclusions.
61.
Following the meeting, Mr. McLaughlin announced,
“It is clear that crimes have been committed that
warrant immediate criminal investigation . . . Chief
Audit Executive Phillip W. Hurd and his team
have developed evidence showing that there is
probable cause to believe that crimes have been
committed.” (emphasis supplied)
62.
By letter to the Director of the GBI dated April 21,
2010, Mr. McLaughlin requested that the GBI pursue
a criminal investigation of Georgia Tech’s reported
allegations against Dr. Laskar and Georgia Tech
employee, Dr. Stephane Pinel. Mr. McLaughlin
attached to his letter a copy of Defendant Hurd’s 2010
Report. Mr. McLaughlin noted that he does not
generally request a particular special agent be assigned
to a given case, but in this instance he requested that
Mr. Wesley Horne be appointed - the same special
agent requested by Mr. Hurd.

App. 38
63.
In his letter, Mr. McLaughlin also emphasized that
“Georgia Tech President G.P. Peterson has pledged the
full support of the university and the resources of
Georgia Tech Internal Auditing . . . Mr. Hurd and his
team stand prepared per Dr. Peterson’s directive to
assist the GBI and Attorney General’s Office in any
way needed.”
64.
The GBI thereafter proceeded to investigate Dr.
Laskar and Dr. Stephane Pinel.
65.
On the morning of May 14, 2010, and approximately
one month after Defendant Hurd had submitted the
2010 report, both he and GBI Special Agent Lisa
Vorrasi met with Cobb County Superior Court Judge
Adele Grubbs. Defendant Hurd and Agent Vorrasi
sought issuance of an Order For Search And Seizure of
Dr. Laskar’s home and two of his automobiles.
66.
Defendant Hurd and Agent Vorrasi asked the Court
to issue an Order directing that any computers seized
during the searches did not have to be taken to the GBI
computer forensics lab in DeKalb County, Georgia but
could instead be taken to the office of Georgia Tech
Internal Auditing. Defendant Hurd and Agent Vorrasi
asked the Court to issue an Order allowing non-law
enforcement employees of Georgia Tech to accompany

App. 39
the GBI and to be present upon execution of the search
warrants.
67.
Agent Vorrasi submitted an Affidavit In Support Of
Search And Seizure Warrants. Upon consideration of
Agent Vorrasi’s Affidavit and other evidence submitted
under oath, Judge Grubbs adjudged there to be
probable cause to believe that Dr. Laskar had violated
State laws. The requested Orders For Search And
Seizure were issued. However, the Affidavit upon
which the Orders were based was replete with false,
misleading and materially incomplete information:
A. Preliminarily, Special Agent Vorrasi admitted in
the Affidavit that nearly all of the information
appearing in it was provided to her by
Defendant Phillip W. Hurd - “Unless otherwise
indicated, all facts presented herein are derived
from my conversations and communications
with Mr. Hurd.”
B. Importantly, the Affidavit, the Orders for Search
and Seizure, and the resulting executed searches
and seizures were designed to disrupt the sale of
Sayana, which Defendants and the Office of the
Attorney General for the State of Georgia were
fully aware was to take place on May 17, 2010.
C. Factually, the Affidavit alleged that “[e]mails
and Georgia Tech financial records indicate
Georgia Tech has been paying [Circuits MultiProjets (CMP)] for chips ordered by, used by, and
sold by Sayana. In other words, there is
probable cause to believe that Laskar and Pinel

App. 40
stole
money from Georgia Tech through
deceptive acts in order to pay for the debt
incurred by Sayana.”
D. These allegations were knowingly false and/or
materially incomplete. The Affidavit failed to
state that all of the microchips purchased by
Georgia Tech from CMP were used by Georgia
Tech and its students. Also omitted was the fact
that the cost of the microchips was a debt
incurred by Georgia Tech - not Sayana.
E. The Affidavit did not state that Sayana was a
member of GEDC and that GEDC member
companies, including Sayana, were not required
to pay for microchips used for Georgia Tech
student research.
F. The Affidavit asserted there was “probable
cause” to believe that Mr. Pinel and Dr. Laskar
had stolen “as much as $700,000 or more” from
Georgia Tech. The Affidavit asserted that the
alleged probable cause for this charge was
discussed in the Affidavit (“as will be discussed
below.”). (Affidavit, p. 7). However, the Affidavit
never provided probable cause information to
support any conclusion that Mr. Pinel or Dr.
Laskar had stolen $700,000 or more from
Georgia Tech. To the contrary, Special Agent
Vorrasi averred that she possessed only “one
complete paper trail of records”—the records
relating to the July 2007 chip runs or tapeouts.
The Affidavit admitted that “[a]t this point in
the investigation, it is unknown whether all of

App. 41
the chip runs were for Sayana or for some other
legitimate GEDC purpose.”
G. The Affidavit alleged that an invoice from chip
manufacturer CMP in the amount of $50,000
was given to Georgia Tech and, on or about
January 6, 2010, Georgia Tech issued a check to
CMP for $50,000. (Affidavit, p. 8). But the
Affidavit was materially false and incomplete in
its assertions because it omitted to state that
payment for the July 2007 chip runs/tapeouts
had been approved by the Georgia Tech Provost
Office and that neither Sayana nor Dr. Laskar
possessed any control over that approval
process.
H. The Affidavit asserted that Mr. Pinel and Dr.
Laskar used their positions at Georgia Tech to
“steal” resources from Georgia Tech to develop
and test Sayana’s microchips. (Affidavit, p. 1).
The Affidavit alleges that the resources which
Mr. Pinel and Dr. Laskar allegedly stole
included “equipment, lab space, employees,
specialized licensed software, computers, and
computer servers.” (Affidavit, pp. 1, 7). The
Affidavit, however, was devoid of any specific
examples of an alleged theft of “lab space,
employees, specialized licensed software,
computers, [or] computer servers” by Mr. Pinel
or Dr. Laskar. The Affidavit falsely, recklessly
and materially omitted the fact that Sayana was
a member of GEDC, and as such it possessed the
same access to “resources” as did other GEDC
members. As with all GEDC members, Georgia

App. 42
Tech was fully aware of the office space, labs,
and other resources which Sayana was using.
Similarly, the Affidavit never pointed out that
numerous other start-up companies founded by
Georgia Tech faculty members had utilized
Georgia Tech resources, used physical office
space and facilities, accessed CAD, design
resources, lab and prototype resources, or
availed themselves of output system design
hardware/software. These startup companies
included (1) CardioMEMS, founded by
Defendant Allen, (2) Axio Bion Systems, founded
by Defendant Allen and Steve De Weerth,
(3) Suniva, founded by Ajeet Rohatgi, (4) ESystem Design, founded by Madhavan
Swaminathan, (5) Jacket MicroDevices (JMD),
founded by Madhavan Swaminathan, (6) Digital
Furnace, founded by John Limb and Daniel
Howard, (7) Innovolt, founded by Deepak Divan,
(8) Lancope, founded by John A. Copeland, and
(9) Nexidia, founded by Mark A. Clements.
I. The Affidavit alleged that Sayana provided
“deliverables” or “functional chips.” (Affidavit,
pp. 6, 9). These allegations were knowingly and
materially false. Sayana never “sold” chips or
provided commercially viable chips. It provided
only chip prototypes for research and
evaluation by Georgia Tech students and its
operational partner, ETRI.
J. The Affidavit falsely and recklessly asserted in
its “Introduction” section that it was “believed”
Mr. Pinel and Dr. Laskar had committed “thefts”

App. 43
by using “a 60 GHZ channel measurement
device (‘the device’)” to test microchips.
(Affidavit, p. 6). Special Agent Vorrasi alleged
that Sayana “could” have leased time on the
“device” from Georgia Tech. However, the
Affidavit offered no support that Sayana or Dr.
Laskar were required to “lease” time on the
“device” from Georgia Tech. The “device” Special
Agent Vorrasi was referring to was a Vector
Network Analyzer (VNA). The Affidavit falsely
and recklessly asserted that Georgia Tech “ha[d]
the only device in this part of the country.”
There were in fact other VNAs available at
Georgia Tech.
68.
Later that same morning, Defendant Hurd and Ms.
Vorrasi met with Fulton County Superior Court Judge
Craig Schwall to seek an Order For Search And Seizure
of:
• Dr. Stephane Pinel’s home;
• nine automobiles belonging either to Dr. Laskar,
Dr. Pinel or Sayana employees;
• Dr. Laskar’s office at Georgia Tech;
• Dr. Pinel’s office at Georgia Tech;
• the offices
employees;

of

three

other

• the office of a Sayana employee;

Georgia Tech

App. 44
• Sayana’s office space at 75 Fifth Street, NW,
Suite 310, Atlanta, Georgia;
• three (3) lab locations at Georgia Tech;
• the person of Dr. Pinel; and
• the person of Dr. Laskar.
69.
Defendant Hurd and Agent Vorrasi asked the Court
to provide that any computers seized during the
searches would not have to be taken to the GBI
computer forensics lab in DeKalb County, Georgia but
could instead be taken to the offices of Georgia Tech
Internal Auditing.
70.
Defendant Hurd and Agent Vorrasi asked the Court
to issue an Order permitting non-law enforcement
employees of Georgia Tech to accompany the GBI and
to be present upon execution of the search warrants.
71.
Upon consideration of Agent Vorrasi’ s Affidavit and
other evidence submitted under oath, the Honorable
Judge Schwall adjudged there to be probable cause to
believe that Dr. Laskar had violated State laws. The
requested Orders For Search And Seizure were issued.
72.
Agent Vorrasi’ s Affidavit was 21 pages in length,
exclusive of exhibits. As noted above, in her Affidavit
the Agent stated that Dr. Laskar had used his position

App. 45
at Georgia Tech to steal money and other resources
from the Institute, including equipment, lab space,
employees, specialized licensed software, computers
and computer servers. Importantly, in the section of
her Affidavit entitled “Sources of Information,”
Agent Vorrasi wrote that “Georgia Tech Director
of Internal Auditing Philip [sic] W. Hurd is
affiant’s primary source of information for this
affidavit . . . He and his audit team are
responsible for conducting the investigative audit
which led to discovering the crimes alleged in this
affidavit. He and his audit team have reviewed
thousands of emails and records. The facts
presented herein are gleaned from this review.
Additional facts contained herein are known
personally by Mr. Hurd . . . [and through his]
review of [certain records] . . . and interviews with
[certain Georgia Tech staff] . . . Unless otherwise
indicated, all facts presented herein are derived
from my conversations and communications with
Mr. Hurd.” (emphasis supplied)
73.
Agent Vorrasi’s Affidavit referenced what
Defendant Hurd and his Georgia Tech Audit team had
“examined,” “retrieved,” “image,” “identified,” “found,”
“discovered,” “revealed” and “determined.” Four times
she used either the phrase “Based upon my
conversations with Mr. Hurd,” or “According to Mr.
Hurd.” The Agent additionally employs the phrase
“According to Audits” on four occasions and utilizes the
phrase “According to Georgia Tech” at 24 separate
places in the Affidavit.

App. 46
Misrepresentations That Sayana Used Office
Space Without Payment
74.
Mr. Hurd reported to Agent Vorrasi that Sayana
had wrongfully occupied and used office space in
Georgia Tech’s Technology Square Research Building
(“TSRB”), explaining that Sayana should have paid
Georgia Tech to lease the space.
75.
Defendant Patrick A. Jenkins testified under oath
and before a representative of the Attorney General’s
office that no evidence had been found demonstrating
the existence of a lease for office space by and between
Georgia Tech and Sayana.
76.
Defendant Hurd admitted under oath that he had
not found a single invoice, bill or contract to show that
GEDC members generally were paying for office space,
for their use of computers, or for their use of CAD labs
or anything else.
77.
Defendant Jenkins subsequently admitted
under oath that he was not aware of any
evidence demonstrating that GEDC company
members whose names appeared on a map of the
TSRB, including G-Tronix, Tepyl, Terabit,
Quellan, Agilent, Microsoft, Neuromorphix,
Whiper, Sienna or OFS had any lease or contract
obligation to pay for use of office space at the

App. 47
Technology Square Research Building (“TSRB”).
Defendant Jenkins testified that he “was not
directed to look into those [companies] . . . I was
only directed to look at Sayana.” (emphasis
supplied) And yet, had Mr. Jenkins simply spoken to
Internal Audit staff member, Larry Webster, he might
have overcome the material incompleteness of his
report. Mr. Webster reported in memorandum notes
entitled “Sayana Space Rental LW/3-19-10” that “Pat
Jenkins asked that I check to see if Sayana Wireless
was renting/leasing office space in either TSRB or the
Centergy Building. I first called Adrian McCord in GT’s
Real Estate Office. She said she currently had no TSRB
space that was rented/leased to an external company.”
Thus, Mr. Jenkins would have learned that no external
company was formally renting or leasing space in that
building.
78.
Dr. Paul Hasler, a Professor in the School of
Electrical and Computer Engineering and the founder
of two start-ups that had become GEDC member
companies; gave a sworn statement specifying that
some of the benefits of GEDC membership included
access to and the use of space within TSRB when
available.
79.
Dr. Gary May testified under oath and before a
representative of the Attorney General’s office that the
benefits of GEDC membership included the ability to
use GEDC equipment and facilities. He testified that
TSRB does not charge rent and that, if a company had

App. 48
an office space in TSRB, that company by definition did
not pay rent.
80.
Dr. May testified under oath that the companies
Pirelli, Microsoft, Quellan, G-Tronix, Agilent and
Neuromorphix all had office spaces in TSRB, and none
of them was charged for their space. He explained that
there was no charge for using TSRB space.
81.
In contrast, Defendant Jilda D. Garton testified
under oath and before a representative of the Attorney
General’s office that, while GEDC bylaws provided that
GEDC member companies had “[a]ccess to GEDC
resources, personnel and activities,” the phrase “access
to resources” meant only that GEDC members could
observe things being used and observe students at
work, and could suggest problems for students to work
on, and could engage in discussions about research
results. Insistently, Defendant Garton testified that
such access did not mean that GEDC members could
actually use GEDC resources or personnel. She further
testified that use could occur only after the Center had
established a cost center so that Georgia Tech was paid
for the use of its equipment and facilities.
82.
Defendant Mark G. Allen testified under oath and
before a representative of the Attorney General’s office
that a GEDC member company was able to use
laboratory tools, CAD tools, laboratory equipment, or
computers, only after a sponsored research agreement

App. 49
was entered into or a cost center was established, by
which the member company would be billed. However,
Defendant Allen conceded that he was not aware of this
being done with any GEDC member company.
83.
Undeterred, Defendant Garton testified under oath
and before a representative of the Attorney General’s
office that she was not personally aware of other
centers or individual professors who were, like Dr.
Laskar, using GEDC resources to manufacture chips.
She testified that she was not personally aware of any
person using chips designed with Georgia Tech
equipment and for use by start-up companies.
84.
Defendant Garton’s assertion notwithstanding,
Defendant Allen had cofounded a company called Axion
Biosystems while he was working at Georgia Tech.
Axion Biosystems used Georgia Tech equipment to
design its chips and made use of Georgia Research
Alliance (“GRA”) funds to produce its chip prototypes.
The GRA is an independent not-for-profit organization
operating in conjunction with the state of Georgia’s
Department of Economic Development and has as its
objective the expansion of research and
commercialization capacity within Georgia’s
universities for purposes of developing the state’s
technology economy.
85.
Defendant Allen testified under oath and before a
representative of the Attorney General’s office that it

App. 50
was appropriate to use GRA Phase 1 and Phase 2 funds
to advance chip prototypes in order to make them
available for commercialization.
86.
Georgia Tech Auditor Larry Webster wrote in a
document he entitled “Lessons Learned,” under the
section heading “Institute Center Policy,” that “OSP
[Office of Sponsored Programs] and GT [Georgia Tech]
have a Center policy, which has rules and procedures
for establishing and running a GT Center.”
Importantly, he wrote, GEDC was ‘grandfathered-out’
of these rules, because they existed before the rules
were finalized (about November 2006). For GEDC, this
led to educational memberships being promoted
(unrestricted gifts to GTF [Georgia Tech Foundation])
and an Advisory Board that did not work as intended
to guide & monitor GEDC activity.” Mr. Webster went
on to suggest that “The President’s Office should
review all Institute Centers, and specifically approve
any other Centers that are allowed not to follow
Institute policy.” Under the section heading “Gifts from
Sponsors,” Mr. Webster again noted that “GEDC was
grandfathered out” of ‘’the Institute’s Center Policies.”
87.
In their Responses to Dr. Laskar’s First Requests To
Admit, dated February 18, 2011, the Board of Regents
of the University System of Georgia admitted that they
did not possess any agreements, contracts, or other
instruments pursuant to which they leased space,
equipment, or resources from GEDC or any other

App. 51
division or center of Georgia Tech to any of the
following 45 companies:
(1)

Adtran, Inc.;

(2)

ADVA Optical Networking;

(3)

Agilent Technologies;

(4)

Anadigics, Inc.

(5)

Analog Devices, Inc.

(6)

Ardext Technologies;

(7)

Anritsu Corporation

(8)

Asahi Glass Co., Ltd.;

(9)

BarcoView, LLC;

(10)

Broadcom Corporation;

(11)

CIENA Corporation;

(12)

Echostar Communications Corporation;

(13)

Ecna International;

(14)

EG Technology, Inc.;

(15)

Engent, Inc.;

(16)

Freescale Semiconductor, Inc.

(17)

Hewlett
Packard Development
Corporation, L.P.;

(18)

HP Labs;

(19)

Infinera;

App. 52
(20)

Integrated Device Technology;

(21)

Intel;

(22)

IVivity, Inc.;

(23)

Kipper Technologies, Inc.;

(24)

Lancope;

(25)

LumoFlex;

(26)

Manheim;

(27)

Nanoventions;

(28)

National Semiconductor;

(29)

Neuromorphix;

(30)

Nexidia;

(31)

Nortel Networks;

(32)

On Semiconductor;

(33)

Optical Fiber Solutions;

(34)

Quellan, Inc.;

(35)

Raytheon Company;

(36)

Rhode & Schwartz;

(37)

RF Micro Devices, Inc.;

(38)

Schlumberger, Ltd.;

(39)

Siemens;

(40)

SoC Solutions;

App. 53
(41)

Sun Microsystems, Inc.;

(42)

Texas Instruments;

(43)

VeriSign Communications Services;

(44)

Vocalocity, Inc.;

(45)

Zoobeat.

Misrepresentations Made Regarding Sayana’s
Purported Use Of Equipment
88.
Dr. May testified under oath and before a
representative of the Attorney General’s office that
GEDC membership entitled member companies to use
GEDC laboratory equipment, design tools and
software, and to use its facilities and programs to
design chips.
89.
Defendant Patrick A. Jenkins testified under oath
and before a representative of the Attorney General’s
office that Sayana employees had used Cadence
software belonging to Georgia Tech and that such use
was wrongful. But Defendant Jenkins acknowledged
that his basis for concluding this was based only on the
fact he had found no written agreement between
Sayana and Georgia Tech that would allow Sayana to
use the software.
90.
As noted, Defendant Hurd communicated to Agent
Vorrasi that Sayana had used a 60GHz channel

App. 54
measurement device owned by Georgia Tech,
explaining that the device was the only one of its kind
in “this part of the country.” Defendant Hurd reported
to Agent Vorrasi that Sayana had not paid but should
have paid monies to Georgia Tech for purported “leased
time” when using the device.
91.
The device to which Defendant Hurd referred is a
Vector Network Analyzer (“VNA”), and GEDC had
approximately five (5) other VNAs within its inventory.
All of the equipment was purchased using research
funding that Dr. Laskar had secured for Georgia Tech.
All GEDC member companies, including Sayana, were
allowed to use the VNAs at no additional cost and
without written agreements in place to use them.
92.
All GEDC member companies also had electronic
access to Georgia Tech’s Cadence software.
93.
Defendant Jenkins testified under oath and before
a representative of the Attorney General’s office that he
had no evidence in hand to show that GEDC member
companies whose names appeared on a map of TSRB,
including G-Tronix, Tepyl, Terabit, Quellan, Agilent,
Microsoft, Neuromorphix, Whiper, Sienna or OFS, had
contracts in place or were being billed at a cost center
for their use of space, computers, CAD machines, or
laboratory equipment. Defendant Jenkins explained
this omission in his proof by testifying he “was only
directed to look at Sayana.” He also testified that he

App. 55
had no evidence to show that any GEDC member
company had a cost center established so that they
could access Georgia Tech computers, CAD equipment,
laboratory equipment or office space, and, importantly,
that he “was not asked to look at it.” (emphasis
supplied)
95.
Dr. May testified under oath that the companies
Pirelli, Microsoft, Quellan, G-Tronix, Agilent and
Neuromorphix, as GEDC member companies, all had
the right to use laboratory equipment and CAD design
tools at no charge because as a GEDC member
company this right of use was a recognized part of their
benefits.
96.
Defendant Jenkins admitted under oath that
he had not pulled up logs for other GEDC
member companies having electronic access to
Cadence software, that he “only looked at the log
for the [sic] Sayana” and that be “was directed to
look at Sayana . . . I was not directed to look at
other GEDC members. I was directed to look at
Sayana . . . I was instructed to identify Sayana
users.” Defendant Jenkins testified tbat he did
not look at GEDC policy or practice with respect
to the use of Cadence software because he was
not directed to do so. (emphasis supplied)
97.
In addition, Defendant Jenkins also admitted under
oath having recalled “something about” a company

App. 56
called Agilent having a CAD lab at GEDC as well as
access to CAD tools. Defendant Jenkins acknowledged
under oath that he had no evidence that Agilent was
billed for such usage or such access, or had a lease or
other contract with Georgia Tech regarding its access
to the CAD lab or its use of Cadence or other CAD
tools. Defendant Jenkins admitted that Agilent had
purchased a CAD tool for GEDC that was made
available for use by other GEDC member companies.
98.
Professor Hasler wrote in a sworn statement that
“some of the benefits of GEDC membership included
the right to use Georgia Tech computers on a dual-use
basis, access and use to laboratory equipment, space
and equipment, access and use of CAD and other
design tools . . .” Dr. Hasler went on to report that
“Georgia Tech faculty are allowed and encouraged to
utilize laboratory resources to develop technology in
their lab and/or research group to where it could be
commercially transitioned, either through licensing or
start-up activities.” The Professor noted that “many of
my colleagues . . . have utilized Institute resources for
developing technology to a level for commercial
transition attempt. It is my understanding that this is
standard practice or procedure at Georgia Tech.”
Misrepresentations Made About Dr. Laskar
Having Stolen Computers
99.
Defendant Hurd communicated to Agent Vorrasi
that Dr. Laskar had stolen computers from Georgia
Tech by giving them to Sayana employees.

App. 57
100.
Defendant Hurd later testified under oath and
before a representative of the Attorney General’s office
that Dr. Laskar had not authorized the use of GEDC
provided computers by GEDC member start-up
companies, including Axion, Technon and GTronix. But
Defendant Hurd later acknowledged under oath that
he had not investigated whether Axion, GTronix or
GEDC member companies had purchased their own
computers or utilized ones provided by GEDC.
101.
Defendant Hurd also acknowledged under oath that
he had not investigated whether Microsoft, Cyber
Semi, Samsung, Panasonic, Sony, AT&T or Nokia were
permitted to use GEDC computers.
102.
When questioned under oath by Senior Assistant
Attorney General McLaughlin during a court hearing
conducted on February 8, 2016 in the criminal case
brought against Dr. Laskar, Chris Evans, the former
Director of Operations for the GEDC, testified that the
computers which Sayana employees took to the
Centergy Building were computers that had been
donated by Agilent for use by startup companies.

App. 58
Misrepresentations Made Regarding The
Nature Of The Materials Which Sayana Had
Transported to ETRI
103.
Defendant Hurd reported to Agent Vorrasi that
Sayana had contracted with several companies to
develop and deliver functional chip schematics, chips
and chip test results.
104.
Sayana in fact had contracted with Electronics and
Telecommunications Research Institute (“ETRI”) by
means of a Collaborative Research Agreement, and
pursuant to which Sayana would send chip prototypes
to ETRI for further testing and evaluation.
105.
Defendant Hurd instead reported to Agent Vorrasi
that Sayana had entered into several contracts for
chips representing fully finished, functional products.
Defendant Hurd’ s report was patently false and
untrue. The chips which Sayana contracted to deliver,
and in fact delivered to ETRI, were chip prototypes.
106.
Almost one year later, Defendant Hurd was forced
to acknowledge under oath and before a representative
of the Attorney General’s office that he had examined
Sayana’s VentureLab application and had learned that
part of Sayana’s proposed VentureLab funding was to
provide chip prototypes to customers. Defendant Hurd
testified that Sayana’s application specified that

App. 59
funding for Phase 1 and Phase 2 would go toward chip
prototypes and the testing of chips. Defendant Hurd
testified that “There’s nothing wrong with GEDC
making prototype chips,” and he further admitted that
he knew the chips that were provided by Sayana to
ETRI were prototype chips and test chips delivered so
that ETRI could evaluate whether the chip technology
properly worked and that he chips being so used could
not be resold.
107.
In their Responses to Dr. Laskar’s First Requests To
Admit, dated February 18, 2011, the Board of Regents
of the University System of Georgia (of which Georgia
Tech is an organizational unit) admitted that the chips
fabricated by CMP in Tapeout reference number GT_
Oct2008 were prototype chips with no commercial
resale value.
108.
In a letter dated May 30, 2009, from Mr. Wooyong
Lee, the head of ETRI’s engineering staff, to Dr.
Laskar, Mr. Lee stated in part: ‘’Pursuant to the
[August 1, 2006] and [January 19, 2007] Collaborative
Research Agreements . . . ETRI acknowledges that it
has received from Sayana the TEST UNIT SAMPLES.”
(both phrases inside brackets and emphasis in the
original).
109.
In a sworn statement read into the record at Dr.
Laskar’s faculty hearing on March 30, 2012, Mr.
Wooyong Lee testified that “[t]purpose of the

App. 60
Collaborative Research Agreements [between ETRI
and Sayana] was to engage in cooperative research to
better understand the applications for exchange and
exchange access services of various technologies,
including low cost 60 gigahertz integrated receiver
technology . . . Sayana provided ETRI with periodic
research reports regarding its research . . . and with
samples of chips manufactured by Circuits MultiProjets . . . so that ETRI could test the chips and verify
the workability of the concept. ETRI paid Sayana for
the periodic research reports. ETRI did not pay Sayana
for any of the CMP chip samples Sayana provided. All
of the chips Sayana provided to ETRI were
prototype chips with no commercial or no resale
value. None of the chips Sayana provided to ETRI
were sold to ETRI for commercial use or resale.”
(emphasis supplied)
110.
In this regard, Senior Assistant Attorney General
McLaughlin relied upon Defendant Allen to help him
understand the technology at issue in the case and
whether it was a fully developed, useable, marketable
chip. For example, by e-mail sent in October 2011, Mr.
McL a ug hlin speci fi ca l l y a sked for ‘’t he
technology/patent/license experts,” among whom he
included by name “Mark Allen and Kevin Wozniak,
collectively, perhaps – to take a look at” four types of
evidence to test “our theory” that ‘’the CMP-chips and
all of the development and testing on the chips was a
preordained journey from license agreement to the
useable, marketable, wireless technology chip which
ended up in those test kits.”

App. 61
111.
Defendant Allen’s involvement notwithstanding,
and despite his personal knowledge that prototype
chips purchased with Georgia Tech funds were
customarily used by startup companies and students,
Defendant Allen took no action to prevent Defendant
Hurd from reporting to Agent Vorrasi that Dr. Laskar
had stolen money from Georgia Tech through deceptive
practices that were intended to cause Georgia Tech to
pay a French chip manufacturer, Circuits Multi-Projets
(“CMP”) for chips used and sold by Sayana in an
amount that “may be as great as $700,000 to
$1,470,000.”
112.
Yet, almost one year later, Defendant Hurd was
forced to acknowledge under oath and before a
representative of the Attorney General’s office that he
had no evidence that Dr. Laskar had taken or used any
of the CMP chips for which Georgia Tech had
reportedly paid $1.4 million.
113.
As previously noted, Mr. Wooyong Lee, an employee
of ETRI, submitted a sworn statement demonstrating
that ETRI had paid Sayana for periodic research
reports and had not paid Sayana for any of the CMP
chip samples which Sayana had provided to it. Mr. Lee
reported that all of the chips which Sayana had
provided to ETRI were prototype chips with no
commercial retail or sale value. None of the chips
which Sayana provided to ETRI, he stated, were sold to
ETRI for commercial use or resale.

App. 62
114.
Professor Hasler, previously identified as a
Professor in the School of Electrical and Computer
Engineering and the founder of two start-up companies
which became GEDC member companies, stated in a
sworn statement that it was “common practice” at
Georgia Tech “for start-up companies to provide
research prototypes to customers for evaluation and
testing, including prototype integrated chips, often at
no additional cost to the start-up company so long as
the chips cannot be resold for commercial use.”
Misrepresentations That Work Performed On
CMP Chips Was Not For The Benefit Of Georgia
Tech
115.
Defendant Hurd reported to Agent Vorrasi that a
variety of documents and things, including research
logs and papers, files, notes, journals, data runs,
schematics, reports, summaries, Gerber files, and the
testing of chips would all show that the work
performed on the CMP chips was for Sayana and not
for Georgia Tech.
116.
And yet, almost one year later, Defendant Hurd
acknowledged under oath and before a representative
of the Attorney General’s office that he had not
bothered to find out whether any of the CMP chips paid
for by Georgia Tech were used in connection with
research dissertations being written by Georgia Tech
students. He explained that he had not done so

App. 63
because, “[i]t wasn’t relevant to my investigation.”
Significantly, Defendant Hurd admitted that Georgia
Tech should pay for chips used in connection with
student research dissertations.
117.
Defendant Jenkins e-mailed Senior Assistant
Attorney General McLaughlin on May 19, 2010 to
report that “the OCT008 [sic] chip run was part of
Sayana’s business with ETRI.”
118.
Importantly, Defendant Jenkins omitted from that
report fact that chip run referenced as GT_ Oct2008
was used for research upon which researchers affiliated
with Georgia Tech based scholarly papers and
presentations.
119.
Matthew Leung, a researcher affiliated with
Georgia Tech’s School of Electrical and Computer
Engineering, stated by sworn affidavit that he coauthored the presentation “Millimeter-Wave CMOS
Power Amplifier Technology,” for the GEDC/GTAC
Industry Review and co-authored the scholarly article
“On the Development of CMOS mmW and sub-THz
Phased Array Technology for Communication/Sensing
Nodes,” based on research obtained runs including
CMP chip run GT_ Oct2008.
120.
David Yeh, a researcher affiliated with Georgia
Tech’ s School of Electrical and Computer Engineering,

App. 64
stated by sworn affidavit that he co-authored an
invited paper and corresponding presentation
materials for Custom Integrated Circuits Conference
entitled “60 GHz CMOS/PCB Co-Design and Phased
Array Technology,” co-authored the three presentations
entitled (1) “WE4D-2: High-speed Signal Processing
Circuits for Wireless and Optical Communication
Systems,” (2) “Ultra Low Power Continuous Time
Analog and Mixed-Signal Multi-Gigabit Technologies,”
(3) “Ultra Low-Power Mixed Signal Multi-Gigabit
Technologies.” and co-authored the three scholarly
articles (I) “Low-Power Analog-to-Digital Converter for
Multi Gigabit Wireless Receiver in 90 nm CMOS,”
(2) “40pJ/bit90nm CMOS Broadband Demodulator with
Fully Integrated DSP Modem” and (3) “On the
Development of CMOS mmW and sub-THz Phased
Array Technology for Communication/Sensing Nodes,”
based on research obtained from several CMP chip
runs including CMP chip run GT_Oct2008.
121.
Defendant Jenkins e-mailed Senior Assistant
Attorney General McLaughlin again on May 21, 2010
to inform him that “Chip run S09C7-1 (aka
GT_JAN2007) – that Georgia Tech paid $177K for was
for Sayana’s deliverable to ETRI.”
122.
Again, Defendant Jenkins omitted from that report
the fact that the chip run referenced as GT _Jan2007
was used for research upon which researchers affiliated

App. 65
with Georgia Tech based scholarly papers and
presentations.
123.
Chang-Ho Lee, a researcher affiliated with Georgia
Tech’s School of Electrical and Computer Engineering,
stated by sworn affidavit that he co-authored the
presentation “Circuit and Module Challenges for
60GHz Gb/s Radio,” based on research obtained from
several CMP chip runs including CMP chip run
GT_Jan2007.
124.
David Yeh a researcher affiliated with Georgia
Tech’s School of Electrical and Computer Engineering,
stated by sworn affidavit that he co-authored the five
presentations entitled (1) “Circuit Module Challenges
for 60 GHz Gb/s Radio,” (2) “CMOS mmW Radar
Technology,” (3) “ISSCC 2008 Session 6/UWB
Potpourri/6.8 A 90 nm CMOS 60 GHz Radio,” (4) “60
GHz 90nm CMOS Front-end Technology,” and
(5) “ISSCC: 60 GHz CMOS 90 nm Radio with
integrated signal processor,” and co-authored the six
scholarly articles entitled (1) “A SOC/SOP Co-design
approach for mmW SMOS in QFN Technology,”
(2) “60GHz CMOS: the intersection of gaming and
connectivity,” (3) “17-dB-Gain CMOS Power Amplifier
at 60 GHz,” (4) “60GHz CMOS 90 nm Radio with
Integrated Signal Processor,” (5) “60 GHz SingleChip
90 nm CMOS Radio with Integrated Single Processor,”
and (6) “Development of CMOS Based Circuits for 60
GHz WPAN applications,” and co-authored an invited
paper and corresponding presentation materials for the

App. 66
Custom Integrated Circuits Conference entitled “60
GHz CMOS/PCB Co-Design and Phased Array
Technology,” based on research obtained from several
CMP chip runs including CMP chip run GT_Jan2007.
125.
On November 15, 2010, Defendant Jenkins emailed
Senior Assistant Attorney General McLaughlin to
report that “the CMP stuff will show that [Sayana Cofounder Stephane Pinel is] ordering the items on behalf
of GT [Georgia Tech]— which is very damning, because
the Sayana reports to ETRI, along with the contracts,
show the true purpose of the chip orders . . . they
cannot deny the deliverables, reports and contracts
between Sayana and ETRI, which in my very humble
opinion, sinks their boat.”
126.
But Defendant Jenkins omitted from his
communication the fact that every chip run ordered
from CMP was used for research upon which students
and/or researchers affiliated with Georgia Tech had
based scholarly papers, presentations, master theses,
and/or doctoral dissertations.
127.
Chang-Ho Lee, a researcher affiliated with Georgia
Tech’s School of Electrical and Computer Engineering,
stated by sworn affidavit that he co-authored scholarly
papers and presentations based on research obtained
from several CMP chip runs including CMP chip runs
GT_Apr 2007 and GT_Jan2007.

App. 67
128.
Matthew Leung, a researcher affiliated with
Georgia Tech’s School of Electrical and Computer
Engineering, stated by sworn affidavit that he coauthored scholarly papers and presentations based on
research obtained from several CMP chip runs
including CMP chip runs GT_Apr2007, GT2_Jul2007,
GTl_Jan2008, GT3_Jan2008, GT1_Apr2008,
GT2_Apr2008, GT3_Apr2008, GT_May2006,
GT2_Jan2008 and GT_Oct2008.
129.
David Yeh, a researcher affiliated with Georgia
Tech’s School of Electrical and Computer Engineering,
stated by sworn affidavit that he co-authored scholarly
papers and presentations based on research obtained
several CMP runs including CMP chip runs
GT_Sept 2 0 0 6 , G T _Ma y 2 0 06 , GT_Jan2007,
G T _Apr2 0 07, GT1_Jul2007, GT2_Jul2 0 0 7 ,
GTl_Jan2008, GT2_Jan2008, GT3_Jan2008,
GT1_Jul2008, GT2_Jul2008, GT3_Jul2008,
GTl_Apr2008, GT2_Apr2008, GT3_Apr2008 and
GT_0ct2008.
130.
Very importantly, Defendant Allen testified under
oath that there were circumstances under which it was
entirely appropriate to use unrestricted funds to pay
for the production of chips that would be used by
Georgia Tech students in published reports, in research
dissertations, or in publications authored by Georgia
Tech faculty members. Defendant Allen, however, did
not act to ensure that the information being provided

App. 68
to the Senior Assistant Attorney General was truthful
and accurate.
131.
Importantly, Professor Hasler’s sworn statement
reported that “it is standard practice and procedure”
for Georgia Tech “to use unrestricted funds,
VentureLab funds, and gifts to pay for research in the
fabrication of building block and prototype chips to be
used in student dissertations and faculty peer review
journals and other publications and presentations.”
132.
Georgia Tech later admitted, in response to formal
Requests for Admission served upon it in pending
litigation, that Georgia Tech had conducted no
investigation into whether student Master thesis
submissions and doctoral dissertation presentations
had been based on, had referenced, or had included any
intellectual property related to computer chips
manufactured by CMP for Georgia Tech, GEDC or
Sayana. Georgia Tech further admitted that, prior to
suspending Dr. Laskar, it had not conducted an
investigation into whether any computer chips
manufactured by CMP had been sold or would be the
subject of a scientific or academic publication, including
without limitation conference papers or journal articles
authored or co-authored by any employee or student of
Georgia Tech.
133.
Before Georgia Tech suspended Dr. Laskar without
pay and the GBI conducted its coordinated raids on

App. 69
May 17, 2010, Georgia Tech made no analyses, reports,
determinations, studies, interviews, audits or other
public records regarding whether the chips fabricated
by CMP were solely for academic purposes, solely for
provision of prototypes to ETRI and Microsoft, or for
both purposes dually. The Board of Regents of the
University System of Georgia (of which Georgia Tech
an organizational unit) responded “Georgia Tech has no
responsive documents,” to the following five Georgia
Open Records Act (“GORA”) requests:
GORA Request No. 6:

All, if any analyses, reports,
determinations, studies,
interviews, audits or other
public record prepared by or
for Georgia Tech at any time
to ascertain or determine as
a matter of fact how many
chips fabricated by CMP
were solely for academic
purposes, i.e., doctoral
dissertations, masters
theses, presentations or
scientific papers;

GORA Request No. 7:

All, if any analyses, reports,
determinations, studies,
interviews, audits or other
public record prepared by or
for Georgia Tech before . . .
May 17, 2010 to ascertain or
determine as a matter of
fact how many chips
fabricated by CMP were

App. 70
solely for academic
purposes, i.e., doctoral
dissertations, masters
theses, presentations or
scientific papers;
GORA Request No. 8:

All, if any analyses, reports,
determinations, studies,
interviews, audits or other
public record prepared by or
for Georgia Tech to
ascertain or determine as a
matter of fact how many
chips fabricated by CMP
were for academic purposes
and the dual purpose of
providing prototype – not for
commercial sale – chips for
ETRI or Microsoft;

GORA Request No. 9:

All, if any analyses, reports,
determinations, studies,
interviews, audits or other
public record prepared by or
for Georgia Tech to
ascertain or determine as a
matter of fact how many
chips fabricated by CMP
were solely and only for the
purpose of providing
prototype –
not for
commercial sale – chips for
ETRI or Microsoft; and

App. 71
GORA Request No. 10: All, if any analyses, reports,
determinations, studies,
interviews, audits or other
public record prepared by or
for Georgia Tech to
ascertain or determine as a
matter of fact how many
different or separate chips
actually are contained in
each “tape out” or
fabrication by CMP.
134.
In point of fact, and this point is crucial to
understanding the false, misleading, and materially
incomplete nature of the Defendants investigative
reports to law enforcement, every CMP chip production
(referred to as a tape run) identified by Defendants had
generated published peer-review journal articles,
conference papers, and dissertations. These production
tape runs included chips which ETRI received. At least
35 dissertations prepared by Georgia Tech doctoral
candidates were in some manner or way related to
these tape runs. Defendants failed to ensure that what
was being alleged was factual and accurate. The record
even suggests that Defendant Garton knew what was
involved when she recommended that Georgia Tech
officials not speak about Sayana and ETRI. When
Senior Assistant Attorney General McLaughlin
suggested that a contact from Georgia Tech be
appointed to deal with ETRI, Defendant Garton
emailed Georgia Tech in-house counsel Patrick
McKenna to warn, “We need to be careful to talk

App. 72
only about Georgia Tech ‘s relationship with ETRI
and not Sayana ‘s. We really know relatively little
about the company’s relationship with ETRI . . .”
(emphasis added). If true, nothing was done to ensure
that Defendants did not present false, misleading and
materially incomplete conclusions about Sayana’s
relationship with ETRI, or from asserting that Sayana
was selling to ETRI finished, commercially saleable
chips.
Misrepresentations Made About The
Falsification Of A Chip Invoice
135.
Defendant Hurd testified under oath and before a
representative of the Attorney General’s office that Dr.
Laskar had caused a Georgia Tech employee named
Cathy Beam to falsify a quote pertaining to CMP chip
production.
136.
Yet, Defendant Hurd later admitted under oath that
Ms. Beam did not inform him that Dr. Laskar had told
her to falsify a quote. Defendant Hurd testified and
admitted that he had found no evidence showing that
Dr. Laskar had directed or instructed anyone to falsify
an invoice. He also testified and admitted that an
employee in Georgia Tech’s Internal Audits department
interviewed Ms. Beam, and that a transcript of that
interview recorded Ms. Beam’s report that “Chris
[Evans]told me to make up a quote.”

App. 73
137.
During Stephane Pinel’s Georgia Tech faculty
hearing regarding his dismissal from Georgia Tech,
Defendant Jenkins testified that an exhibit presented
to him reflected “the fake quote that was forged by
Kathy [sic] Beam upon direction of Chris Evans and, I
believe, Dr. Laskar.”
138.
Ms. Beam was questioned on more than one
occasion by the GBI. She never reported to the GBI
that Dr. Laskar had instructed or requested her to
falsify a quote.
139.
In a hearing before The Honorable Robert
McBurney of the Superior Court of Fulton County on
January 26, 2016, Ms. Beam testified that Chris Evans
had instructed her to create the quote.
Misrepresentations That Sayana Transmitted
Georgia Tech Intellectual Property For Which
Sayana Had No License Extending To ETRI
140.
In the 2010 Audit Report, Defendants reported that
Sayana had delivered to ETRI intellectual property
that may have been Georgia Tech’s property.
141.
In April 2010, during a meeting lasting several
hours, Defendant Hurd made a PowerPoint
presentation to Senior Assistant Attorney General

App. 74
McLaughlin, to representatives of Georgia Tech, and to
the Office of Internal Audit for the Board of Regents.
The slides from Defendant Hurd’ s presentation accuse
Sayana of delivering intellectual property to ETRI that
may have been Georgia Tech’s property.
142.
Defendant Hurd testified under oath and before a
representative of the Attorney General’s office that
Sayana had a contract with the GTRC, pursuant to
which it licensed certain intellectual property in
existence in 2006, but that Sayana had filed and used
14 additional patents covering intellectual property
belonging to Georgia Tech and for which Sayana had
been granted no license. Defendant Hurd cited Mr.
Wozniak as the source of his information. Importantly,
Defendant Hurd acknowledged that he had not
questioned Dr. Laskar about this.
143.
Defendant Hurd testified under oath and before a
representative of the Attorney General’s office that
Sayana had given or sold intellectual property or things
to ETRI that it was not licensed to use and that Dr.
Laskar had permitted ETRI employees to visit Georgia
Tech laboratory facilities where they were exposed to
Georgia Tech intellectual property.
144.
These assertions notwithstanding, Defendant Hurd
later admitted under oath that ETRI had a separate
contract with Georgia Tech allowing it to access GEDC
labs, and that other companies, including Microsoft,

App. 75
Texas Instruments, AT&T and Hewlett Packard, all
had similar contracts with Georgia Tech which allowed
them to access GEDC labs.
145.
Defendant Hurd later admitted under oath that he
had not investigated whether any of the information
provided to ETRI was derived from publicly available
articles discussing 60 GHz research.
Misrepresentations That Dr. Laskar Defrauded
ETRI
146.
During the aforementioned meeting in April 2010,
Defendant Hurd made a PowerPoint presentation to
Senior Assistant Attorney General McLaughlin, to
representatives of Georgia Tech, and to the Office of
Internal Audit for the Board of Regents presenting
slides which accused Dr. Laskar of defrauding ETRI.
147.
Defendants’ Audit reported to Agent Vorrasi Dr.
Laskar had deceived ETRI
148.
Defendant Hurd testified under oath and before a
representative of the Attorney General’s office that
Sayana “couldn’t provide the exact chips, so they took
other chips [owned by Georgia Tech] to fool ETRI’s
accounting . . . they sent to ETRI the other chips that
they wanted to just fool their accounting so they could

App. 76
get payment.” But there was, and there is, no evidence
to substantiate this charge.
149.
Sayana employees Bevin Perumana, Saikat Sarkar
and Padmanava Sen all testified, when they were
deposed by Senior Assistant Attorney General
McLaughlin on June 24, 20l0, that Sayana files which
had been labeled “fake” indicated only that the files
were preliminary layouts and not final layouts. The
employees all testified that the “fake” designation was
used only to distinguish between preliminary and final
layouts and had nothing whatsoever to do with the
authenticity of the files.
Misrepresentations That Georgia Tech Had
Strict Policies and Procedures Regarding
Faculty Members’ Public and Private Work
150.
Defendant Hurd reported to Agent Vorrasi that
strict policies and procedures existed at Georgia Tech
to control how faculty members “blend[]” their “public
and private” work. But this is not true.
151.
In the aftermath of Dr. Laskar’s suspension, Steve
Cross, Executive Vice President for Research at
Georgia Tech, informed Kwang Wook Bae, an executive
at Samsung, that what had happened with Dr. Laskar
occurred because Georgia Tech and the GTRC did not
have well established rules place and that they were
working to establish guidelines.

App. 77
152.
Similarly, Defendant Mark Allen told Mr. Bae what
happened with Dr. Laskar occurred because Georgia
Tech and the GTRC did not have well established rules
in place and that they were working to establish
guidelines. Samsung, however, elected to discontinue
its work with Georgia Tech after the University’s action
taken against Dr. Laskar, reporting that ownership
issues concerning the intellectual property on which
Samsung’s supported research had taken place would
complicate the relationship going forward.
Misrepresentations Made About A Theft of
Resources Including Employees from Georgia
Tech
153.
Defendant Hurd reported to Agent Vorrasi that Dr.
Laskar used his position at Georgia Tech to steal
resources from Georgia Tech, including employees.
154.
Defendant Hurd testified under oath and before a
representative of the Attorney General’s office that he
reached the conclusion that Sayana had compelled
students who were paid by Georgia Tech to work 100%
of their time for ETRI, based on his review of a
Collaborative Research Agreement between Sayana
and ETRI.
155.
The recklessness of this assertion was revealed
when Defendant Hurd also testified that he did not

App. 78
know whether the term “load” used in the Collaborative
Research Agreement signified a percentage of (a) any
and all time the worker could work during a 24-hour
day, or (b) the time the worker could work for Sayana
outside of the worker’s other professional
commitments.
156.
Defendant Hurd testified that he never contacted
ETRI to seek clarification of what the term “load”
meant in the context of the Collaborative Research
Agreement. When the hearing Chairman sought to
clarify what Defendant Hurd did and did not know
about the meaning of the term “load,” and observed
‘’this issue about well, were they doing their day a week
or other things, that is still sort of cloudy right now,”
Defendant Hurd concurred by stating, “That, that is
cloudy.” (emphasis supplied)
157.
Defendant Jenkins testified under oath and before
a representative of the Attorney General’s office that he
never contacted anybody at ETRI to ask what the term
“load” meant in the context of the Collaborative
Research Agreement because he “thought it was selfexplanatory.” He further testified that the term “load”
was nowhere defined in the Collaborative Research
Agreement.
158.
In a sworn statement read into record at Dr.
Laskar’s faculty hearing on March 30, 2011, Mr.
Wooyong Lee testified that “As part of its Collaborative

App. 79
Research Agreement ETRI, Sayana designated Dr. Joy
Laskar,, Dr. Stephane Pinel, Dr. Kyuate Lim, Dr.
Saikat Sarkar, Sen Padmanava and R. Mukhopadhyay
as members of its research team and agreed those
persons would spend a set percentage of the time each
was permitted to work for Sayana on our project. ETRI
understood that the individuals identified . . . were not
full-time employees of Sayana and thus would not be
able to spend all of their time on our collaborative
research projects. For example, ETRI understood by
stating Saikat Sarkar would work a hundred percent
load, Sayana was agreeing only that all of Sarkar’s
time with Sayana would be spent on our joint project.”
Actions By Defendants In Conjunction With
The Wrongful Suspension Of Dr. Laskar
159.
On May 18, 2010, one day following the GBI’s raid
of Dr. Laskar’s home, and following raids conducted at
20 other locations, Georgia Tech proceeded to suspend
Dr. Laskar from his position of employment at Georgia
Tech and to do so without pay. Mr. Stephen Fleming,
then Vice President of Georgia Tech, sent an e-mail to
Georgia Tech faculty members describing the policies
and procedures for the use of Georgia Tech facilities
and resources by start-up companies. Mr. Fleming
wrote, in part, “I’m sure you’ve all seen the news
reports about a potential misuse of resources at one of
our campus research centers . . . Some of you have
reached out to us expressing concern about your own
research and commercialization activities.” He
encouraged those who were concerned they might have
violated a rule to contact a specified Georgia Tech

App. 80
employee to discuss the matter. Defendant Jilda
Garton testified under oath and before a representative
of the Attorney General’s office that Mr. Fleming’s email had been sent ‘’because we were asked a number
of questions. And folks wanted us to clarify and make
sure that those policies and procedures were
articulated for people who were asking those
questions.” In other words, because of longstanding
practices and procedures, members of the Georgia Tech
community wanted to understand if those procedures
affecting their member companies had now been placed
in question.
160.
After search warrants were secured by Agent
Vorrasi on the basis of her Affidavit and information
supplied to her by Defendant Hurd, she conducted a
briefing on Friday, May 14, 2010 with approximately
25 individuals who would participate in the execution
of the search warrants. These 25 people included GBI
agents, Georgia Tech Department of Public Safety
Officials, and Georgia Tech Internal Audit employees.
On Monday May 17, 2010, the GBI raids took place at
21 different locations. Defendant Jenkins testified
under oath that GBI officials wore Kevlar vests and
had their guns drawn when executing the warrants.
161.
Every single item seized during the GBI raids was
released to the Georgia Tech Internal Audit
Department and stored in a building on the Georgia
Tech campus in Atlanta, Fulton County, Georgia.
Defendant Hurd personally signed the documentation

App. 81
recording many of these releases of evidence from the
GBI to Georgia Tech Internal Audits. The items seized
included many non-technical items such as a passport
seized from Stephane Pinel‘s bedroom, Delta Airline
tickets seized from his office, six U.S. passports and
Indian currency seized from Dr. Laskar’s home, as well
as bits of paper with handwriting on them dug out of
trash cans.
162.
Melissa Hall, an employee of Georgia Tech’s
Internal Auditing, subsequently accompanied Agent
Wesley Horne to receive equipment regarding 60 GHz
technology from Georgia Tech employee Dr. Stephen
Ralph. That equipment was also released to Georgia
Tech’s Internal Auditing.
163.
At approximately 8:30 am, May 17, 2010, nine law
enforcement officials (including four GBI agents and
five Cobb County Police Department officers) began
their raid of Dr. Laskar’s home. The raid lasted
approximately four hours. During the course of the
raid, investigators destroyed a project Dr. Laskar’s
seven-year old daughter had made for school.
164.
When the raid began at his home, Dr. Laskar was
unaware; he was at that moment on the Georgia Tech
campus. GBI Special Agent Lisa Vorrasi approached
Dr. Laskar on campus and tried to question him. She
told him that she wanted to search his vehicle. Dr.
Laskar then accompanied Agent Vorrasi and another

App. 82
GBI agent to a parking deck located on the Georgia
Tech campus. Although Agent Vorrasi’s search warrant
for Dr. Laskar’s vehicle listed the wrong model, Dr.
Laskar nevertheless unlocked his car to make it
available for her inspection.
165.
When Agent Vorrasi seized Dr. Laskar’s computer
from his vehicle, Dr. Laskar provided her with the
login-in and password information to allow her to
access the information thereon.
166.
Prior to these raids, Dr. Laskar was never
questioned by Georgia Tech‘s Internal Auditing
Department. As of February 15, 2010, Larry Webster,
an employee of the Department, was under the
impression that Internal Auditing planned to question
Dr. Laskar before commencing its raids. Even
Defendant Allen had inquired if Defendant Hurd would
not be meeting and discussing matters with Dr.
Laskar. Defendant Hurd declined, and Defendant Allen
did not use his authority to direct Mr. Hurd to afford
the Professor that minimal opportunity to demonstrate
that the Defendants’ conclusions were false, misleading
and materially incomplete.
167.
During some of the GBI’s raids, employees of
Georgia Tech’s Internal Auditing department
accompanied law enforcement officials. Terry Nolan,
the Associate Director of Internal Auditing at Georgia
Tech, accompanied law enforcement officials on their

App. 83
raid Sayana’s offices at 75 Fifth Street, NW, Suite 310,
Atlanta, Fulton County, Georgia and their raid Dr.
Laskar’s office on the Georgia Tech campus.
Defendants Jenkins Joined Prosecutors In
Formally Questioning Sayana Employees
168.
On June 24, 2010, Sayana employee Bevin
Perumana was deposed by Senior Assistant Attorney
General McLaughlin in the presence of Special Agent
Vorrasi. Defendant Patrick Jenkins was present at Mr.
Perumana’s deposition. During the deposition,
Defendant Jenkins spoke on the record and questioned
Mr. Perumana directly.
169.
On June 24, 2010, Sayana employee Saikat Sarkar
was deposed by Mr. McLaughlin, again in the presence
of Special Agent Vorrasi and Defendant Jenkins.
During the deposition, Defendant Jenkins spoke on the
record and questioned Mr. Sarkar directly.
170.
On June 24, 2010, Sayana employee Padmanava
Sen was deposed by Mr. McLaughlin in the presence of
Special Agent Vorrasi and Defendant Jenkins. During
the deposition, Defendant Jenkins spoke on the record
and questioned Mr. Sen directly.
171.
Defendant Jenkins assisted GBl Agent Lisa Vorrasi
with her questioning of witness Romain Pelard.

App. 84
172.
Defendant Jenkins assisted GBl Agent Lisa Vorrasi
with her questioning of witness Angelika Braig.
173.
Defendant Jenkins assisted GBl Agent Lisa Vorrasi
with her questioning of witness Edward Gebara.
174.
Defendant Jenkins assisted GBI Agent Lisa Vorrasi
with her questioning of witness Carl Rust.
175.
Defendant Jenkins assisted GBI Agent Lisa Vorrasi
with her questioning of witness Kyutae Lim.
176.
Defendant Jenkins assisted GBI Agent Wesley
Horne with his questioning of witness Joi Adams.
177.
Defendant Jenkins assisted GBI Agent Wesley
Horne with his questioning of witness Debasis Dawn.
178.
Defendant Jenkins assisted GBI Agent Wesley
Horne with his questioning of witness David Yeh.
179.
Defendant Jenkins assisted GBI Agent Wesley
Horne with his questioning of witness Cathy Beam.

App. 85
180.
After the GBI questioned Paul Freet, the Principal
at VentureLab, Mr. Freet observed almost of the
questions had been asked by Georgia Tech Internal
Audit employees, and not the GBI agents. Georgia Tech
employees appeared to be running the interview and
those Georgia Tech Internal Audit employees
questioning him, he said, were not familiar with
VentureLab or the spin-out process.
181.
On March 17, 2011, Jessica Sentz, a licensed
attorney working in Georgia Tech’s Office of Legal
Affairs wrote to Senior Assistant Attorney General
McLaughlin to inquire: “[W]e wanted to know how to
approach him [Patrick Jenkins] as a WTN [witness]
because of his wearing two hats: GT employee and GBI
agent (I use the ‘agent’ loosely). He’s going to be our
star WTN [witness] and we want to keep a Chinese
firewall between what he knows as GT EE and what he
knows as a ‘helper’ to GBI. Can we call you . . . for the
answers those questions?’‘
182.
Defendants were unusually and closely involved
with law enforcement and investigative authorities
respecting the actions instigated and taken against Dr.
Laskar.

App. 86
GBI Warrants Were Executed On The Day The
Sayana Auction Sale Was Scheduled To Occur,
Causing That Sale To Be Cancelled
183.
Sayana Wireless LLC paid $50,000.00 to the firm
Pagemill Partners in order to effectuate the sale of
Sayana by private auction. Pagemill Partners is a
Silicon Valley technology investment bank specializing
in the sale of electronic design companies.
184.
Seventeen (17) different companies had conducted
an investigation of Sayana and were identified as
potential bidders. Pagemill Partners had advised
Sayana that it anticipated an auction price for Sayana
of more than $30 Million.
185.
The auction was scheduled to begin on May 17,
2010.
186.
On the morning of May 17, 2010, the Georgia
Bureau of Investigation, in furtherance of criminal
charges reported, approved, assembled and
communicated by Defendants, raided the homes of Dr.
Laskar and Dr. Pinel, their offices at Georgia Tech, and
some 20 other locations. The personal and professional
items, including computers, seized in this raid have
never been returned to Dr. Laskar and his family,
notwithstanding the dismissal of all charges against

App. 87
him. Many of the items taken were highly personal in
nature.
187.
Assisted by emails and press releases planned,
orchestrated and disseminated by Defendants and
those to whom they reported at Georgia Tech, the
events described were covered intensely by the news
media. Pagemill Partners was forced to halt the auction
of Sayana. As a consequence of the auction being
cancelled, Sayana lost millions of dollars in sales
proceeds.
188.
Dr. Laskar was deprived of millions of dollars in
anticipated transaction proceeds. As holder of a 10%
member interest in Sayana, the Georgia Tech Research
Corporation also lost millions of dollars in anticipated
proceeds. Defendants regarded it to be more important
to act maliciously toward and against Dr. Laskar than
to preserve and protect the benefits available to GTRC.
189.
On December 30, 2014, Dr. Laskar was criminally
indicted for racketeering and theft in connection with
the purchase by Georgia Tech of CMP computer
prototype chips.
190.
As noted, on October 5, 2016, The Honorable Robert
McBurney of the Superior Court of Fulton County
dismissed all claims presented and filed against Dr.
Laskar, terminating that legal proceeding in Dr.

App. 88
Laskar’s favor. In concluding that the State was
attempting to utilize a payment made by Georgia Tech
to CMP, the French-based company which had
manufactured the chips in question, Judge McBurney
analyzed that any alleged criminal act, if proven, could
only have occurred outside the statute of limitations
period. As for the payment by Georgia Tech to CMP,
which the State asserted was took place within the
purported limitations period, Judge McBurney
concluded that Dr. Laskar could not have authorized
the payment inasmuch as it was effectuated well after
Dr. Laskar had been suspended and terminated by the
University. In other words, the payment was made
after Dr. Laskar no longer had authority to act on the
University’s behalf or to cause the payment to be made.
(Order, pp. 2 and 3, fn. 5) (“In particular, he could not
have ‘acted’ in the context of the alleged racketeering
scheme when Georgia.Tech paid the bill that forms the
basis for the State’s claim that some act of racketeering
occurred with the period of the statute of limitations.
That final payment to CMP, authorized by senior
University officials, was made over a year after
Defendant had been fired, i.e, at a time when
Defendant had no ability to take actions on behalf of
the University.”) Moreover, the State presented no
evidence to show that Dr. Laskar or Sayana had any
intention to deprive Georgia Tech of the prototype
chips that were ordered, which was a necessary
element to the underlying crime of theft being
advanced pursuant to provisions of Georgia law. Cook
v. State, 180 Ga. App. 139 (1986). All of the
aforementioned evidence demonstrated and confirmed
that the chips in question had been used by students at
Georgia Tech, for research and thesis study, thereby

App. 89
demolishing any suggestion let alone a criminal
assertion that Dr. Laskar had sought to deprive
Georgia Tech of the property. This analysis
demonstrates there was no probable cause to support
the charges brought against Dr. Laskar.
SECTION 1983 CLAIM FOR MALICIOUS
PROSECUTION
191.
The allegations contained in paragraphs 1 through
190 of Plaintiffs Complaint are incorporated herein by
reference as if each said paragraphs was restated and
re-alleged in its entirety.
192.
42 U.S.C. § 1983 provides in pertinent part:
Every person, who under color of any statute,
ordinance, regulation, custom or usage of any
state or territory of the District of Columbia
subjects or causes to be subjected any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges or immunities secured by the
constitution and law shall be liable to the party
injured in an action at law, suit in equity, or
other appropriate proceeding for redress.
193.
At all times relevant to the material events
described in this Complaint, Plaintiff was a citizen of
the United States of America and a person within and
subject to its jurisdiction. All of the named Defendants

App. 90
were persons acting under color of a state and state law
as that conduct is described in 42 U.S.C. § 1983.
194.
At all times relevant hereto, the Defendants acted
under the color of state law when acting within the
scope of their employment and as employees of an
institutional arm of the state of Georgia, the Board of
Regents of the University System of Georgia, the stateowned Georgia Institute of Technology, and the
Institute’s affiliated entities. All of the Defendants
performed the acts and omissions described in this
Complaint within the scope of their official duties and
employment. However, the claims stated by Plaintiff
are not asserted against the Defendants in their official
capacities; rather, all claims are asserted against them
in their individual and personal capacities.
195.
Defendants attempted to influence, instigate and
mislead a criminal investigator and prosecutor by
knowingly providing false, misleading and materially
incomplete information regarding Plaintiff and his
actions. Defendants are liable for maliciously
instigating, initiating, advancing, facilitating and
pursuing the criminal prosecution of Plaintiff and
without probable cause. “In Georgia . . . it is beyond a
reasonable dispute that a person who provides false,
misleading, or materially incomplete information to
law enforcement can be held liable for instigating a
malicious prosecution.” Buckner v. Shetterley, 621 F.
Supp.2d 1300 (M.D. Ga. 2008). “[A] government official
who . . . instigates or causes an unlawful arrest may be

App. 91
held liable under the Fourth Amendment.” Id. (citing
Rodriguez v. Ritchey, 539 F.2d 394, 400 (5th Cir.
1976)(“[G]eneral principles of tort law provide a cause
of action for unlawful arrest against a defendant who
affirmatively instigated, encouraged, incited, or caused
the unlawful arrest.”). Thus, Defendants violated
Plaintiffs constitutional right against unreasonable
arrest, seizure and prosecution, and that right was
“clearly established” at the time of the Defendants’
misconduct. Rehberg v. Paulk, 611 F.3d 828, 834 (11th
Cir. 2010). The state of the law at the time of
Defendants’ actions and omissions gave Defendants
“fair warning” that their actions were violative of
Plaintiffs federally protected rights. 621 F. Supp. 2d at
1300. Importantly, there need not be a case “on all
fours” with materially identical facts before courts will
allow suits against [officials]. 621 F. Supp. 2d at
1303)(citing Holloman ex rel. Holloman v. Harland, 370
F.3d 1252, 1277 (11th Cir. 2004)).
196.
Defendants, by providing false, misleading, and
materially incomplete information about Plaintiff,
about the facts and circumstances surrounding his
conduct while he worked for and on behalf of Georgia
Tech, GEDC, Sayana, GTRC, and in support of
students whom he mentored and advised, acted
maliciously and without probable cause when they
recommended, requested, instigated, referred,
suggested, and directed the initiation of a criminal
prosecution against

App. 92
197.
Defendants’ actions resulted in, led to, and caused
the criminal prosecution of Plaintiff for two counts of
racketeering based upon the underlying crimes of theft
by taking. O.C.G.A. §§ 16-14-4(a) and (b). On October
5, 2016, the criminal proceedings against Plaintiff were
terminated finally and fully in his favor. Williams v.
Marbut, 52 Ga. App. 588, 183 S.E. 820 (1936)(“The
final termination of a criminal case favorably to the
defendant, and amounting to a final ending of the
prosecution, is such a termination favorably to the
defendant as constitutes a basis for a suit for malicious
prosecution.”); Gooch v. Tudor; 296 Ga. App. 414
(2009)(“We note that punishment under a criminal
statute may not be used for the collection of a debt,
contractual or otherwise.”)(citing the Constitution of
the State of Georgia, “There shall be no imprisonment
for debt.” Art. I, Section 1, Paragraph 23); Uboh v.
Reno, 141 F.3d 1000, 1005 (11th Cir. 1998)(“Consistent
with each of the policies underlying the favorable
termination requirement, however, courts have found
favorable termination to exist by virtue of an acquittal,
an order of dismissal reflecting an affirmative decision
not to prosecute, a dismissal based on the running
of the statute of limitations, an entry of a nolle
prosequi, and, in some cases, a granted writ of habeas
corpus.”)(emphasis supplied). “Actual innocence,
however, is not required for a common law favorable
termination.” Id. (citing Restatement of the Law of
Torts, §§ 659, 660 (1938)). Under Georgia law, “[a]
criminal prosecution which is carried on maliciously
and without any probable cause and which causes
damages to the person prosecuted shall give him a

App. 93
cause of action.” O.C.G.A. § 51-7-40. The right of action
accrues when the criminal prosecution is ended.
O.C.G.A. § 51-7-41. (“The criminal prosecution forming
the basis for an action for malicious 98 prosecution
must be ended before the right of action for malicious
prosecution accrues.”) A plaintiff may recover general
damages as well as compensation for any arrest or
imprisonment, including damages for discomfort or
injury to his health, or loss of time and deprivation of
society. Heck v. Humphrey, 512 U.S. 477, 484 (1994)
Attorneys’ fees incurred are recoverable. Accordingly,
the Defendants’ conduct constituted the tort of
malicious prosecution of Plaintiff under principles of
Georgia and federal law.
198.
As a direct and proximate result of Defendants’
actions, Plaintiff has suffered, and is entitled to
recover, direct, consequential, special and other
damages in an amount to be determined at a trial of
this action.
199.
The actions and omissions of Defendants resulted in
Plaintiff’s arrest, in the wrongful and unlawful seizure
of his private property and papers, and in the seizure
and criminal prosecution of his person. Dr. Laskar was
deprived of his personal liberty, of his ability to secure
gainful employment, and of his ability to support his
family. Dr. Laskar experienced and suffered the
destruction of his career along with the destruction of
his personal and professional reputation. Defendants
caused Plaintiff to suffer these damages in violation of

App. 94
the Fourth Amendment to the Constitution of the
United States of America.
200.
Under governing Eleventh Circuit authority, it is
established ‘’with obvious clarity, that a government
official is prohibited from intentionally providing false
information to law enforcement without probable cause
and thereby directly causing a Fourth Amendment
violation.” Buckner v. Shetterley, 621 F.Supp.2d 1300
(M.D. Ga. 2008).
201.
Defendants are not entitled to the protection of any
sovereign, official or qualified immunity for their
actions and omissions. The violation by Defendants of
Plaintiff’s Fourth Amendment constitutional rights of
liberty and improper seizure, under circumstances
demonstrating that they had fair warning such a
deprivation of rights was illegal, and having delivered
false, misleading and materially incomplete
information to law enforcement, deprives them of any
immunity that they might otherwise be entitled to
claim.
202.
Plaintiff is entitled to the recovery of his reasonable
attorneys’ fees and costs pursuant to 42 U.S.C. § 1988,
and to the recovery of pre-judgment interest and costs
as provided under federal law. Defendants have acted
in bad faith, and Plaintiff is additionally entitled to the
recovery of his reasonable attorneys’ fees and expenses

App. 95
of litigation under and by virtue of O.C.G.A. Section 136-11.
203.
Defendants’ actions were willfully undertaken,
deliberately and maliciously pursued, and evidence bad
faith. Defendants’ actions constituted a willful and
wanton disregard for, and a violation of Plaintiffs
Constitutional rights.
204.
The actions of Defendants additionally evidence
willful misconduct, malice, fraud, wantonness,
oppression, and an entire want of care sufficient to
raise the presumption of a conscious indifference to
consequences. Under and by virtue of O.C.G.A. § 51-125.1(b), Plaintiff is entitled to an award of punitive
damages in an amount to be determined by the
enlightened conscience of the jury.
205.
Plaintiff brings this action timely and in accordance
with the relevant statute of limitations.
WHEREFORE, Joy Laskar, Ph.D., respectfully
prays and demands:
(1)

that process issue as provided by law;

(2)

that Plaintiff have judgment against
Defendants for all recoverable direct,
consequential and special damages arising
under Count One of his Complaint;

App. 96
(3)

that Plaintiff have a recovery of prejudgment interest;

(4)

that Plaintiff recover his reasonable
attorneys’ fees and expenses of litigation;

(5)

That Plaintiff recover punitive damages in an
amount to be determined by the enlightened
conscience of the jury;

(6)

That all costs of this action be cast upon
Defendants;

(7)

That Plaintiff have a trial of this action
before a jury of his peers;

(8)

That the Court declare Defendants’ conduct
has violated the Fourth Amendment to the
Constitution of the United States; and

(9)

that Plaintiff have such other and further
relief as this Court deems just and proper.

DATED: November 28, 2018.

App. 97
Respectfully submitted,
/s/ Michael A. Dailey
Michael Alan Dailey
Georgia Bar No. 203250
ANDERSON DAILEY LLP
2002 Summit Boulevard
Suite 1250
Atlanta, Georgia 30319
404 442 1800 voice
404 442 1820 data
mdailey@andersondailey.com
Attorney for Plaintiff

App. 98
CERTIFICATE OF COMPLIANCE
Pursuant to Rule 5.1 of the Local Rules of the U.S.
District Court for the Northern District of Georgia, the
undersigned certifies that the within and foregoing
Complaint was prepared in accordance with L.R. 5.1,
N.D. Ga., using Times New Roman font, 14 Point.
This 28th day of November, 2018.
/s/ Michael A. Dailey
Michael Alan Dailey
Georgia Bar No. 203250
ANDERSON DAILEY LLP
2002 Summit Boulevard
Suite 1250
Atlanta, Georgia 30319
404 442 1800 voice
404 442 1820 data
mdailey@andersondailey.com
Attorney for Plaintiff

App. 99
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CIVIL ACTION FILE
NO. 1:18-cv-4570-WMR
[Filed: November 28, 2018]
____________________________________
JOY LASKAR, Ph.D.,
)
)
Plaintiff,
)
)
vs.
)
)
PHILLIP W. HURD;
)
PATRICK A. JENKINS; JILDA D.
)
GARTON; and MARK G. ALLEN,
)
)
Defendants
)
____________________________________)
CERTIFICATE OF SERVICE
This is to certify that I have this day served a copy
of the within and foregoing Plaintiff’s First Amended
Complaint by filing the document with the Court’s
CM/ECF filing system, which automatically serves a
copy of the filing upon counsel for Defendants:
Paul Jay Pontrelli, Esq.
Assistant Attorney General
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300
ppontrelli@law.ga.gov

App. 100
This 28th day of November, 2018.
/s/ Michael A. Dailey
Michael Alan Dailey
Georgia Bar No. 203250
ANDERSON DAILEY LLP
2002 Summit Boulevard
Suite 1250
Atlanta, Georgia 30319
404 442 1800 voice
404 442 1820 data
mdailey@andersondailey.com
Attorney for Plaintiff

